No. 19-___
IN THE

Supreme Court of the United States
_____________

SENATORS RICHARD BLUMENTHAL, RICHARD J. DURBIN, PATTY
MURRAY, ELIZABETH WARREN, AMY KLOBUCHAR, BERNARD
SANDERS, PATRICK LEAHY, SHELDON WHITEHOUSE, CHRISTOPHER
A. COONS, MAZIE K. HIRONO, CORY A. BOOKER, KAMALA D.
HARRIS, MICHAEL F. BENNET, MARIA CANTWELL, BENJAMIN L.
CARDIN, TOM CARPER, CATHERINE CORTEZ MASTO, TAMMY
DUCKWORTH, KIRSTEN E. GILLIBRAND, MARTIN HEINRICH, TIM
KAINE, EDWARD J. MARKEY, JEFF MERKLEY, CHRIS MURPHY,
JACK REED, BRIAN SCHATZ, TOM UDALL, CHRIS VAN HOLLEN,
AND RON WYDEN, Petitioners,

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, Respondent.
_____________

On Petition for a Writ of Certiorari to the
U.S. Court of Appeals for the District of Columbia Circuit
_____________

APPENDIX TO THE PETITION
FOR A WRIT OF CERTIORARI
_____________

ELIZABETH B. WYDRA
BRIANNE J. GOROD*
BRIAN R. FRAZELLE
CONSTITUTIONAL
ACCOUNTABILITY CENTER
1200 18th Street NW, Suite 501
Washington, D.C. 20036
(202) 296-6889
brianne@theusconstitution.org
Counsel for Petitioners
July 6, 2020

* Counsel of Record

APPENDIX
TABLE OF CONTENTS
Page
Judgment of the U.S. Court of Appeals
for the District of Columbia Circuit
(February 7, 2020).................................. App. 1
Opinion of the U.S. Court of Appeals for
the District of Columbia Circuit
(February 7, 2020).................................. App. 3
Order of the U.S. District Court for the
District of Columbia (September 28,
2018) ....................................................... App. 14
Memorandum Opinion of the U.S.
District Court for the District of
Columbia (September 28, 2018) ............ App. 15
Order of the U.S. District Court for the
District of Columbia (April 30, 2019) .... App. 63
Memorandum Opinion of the U.S.
District Court for the District of
Columbia (April 30, 2019)...................... App. 64
Memorandum Opinion and Order of the
U.S. District Court for the District of
Columbia (June 25, 2019) ...................... App. 105
Order of the U.S. Court of Appeals for
the District of Columbia Circuit
(July 19, 2019) ........................................ App. 115

(i)

ii
TABLE OF CONTENTS – cont’d
Memorandum Opinion and Order of the
U.S. District Court for the District of
Columbia (August 21, 2019) .................. App. 118
Order of the U.S. Court of Appeals for
the District of Columbia Circuit
(September 4, 2019) ............................... App. 125

App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5237
RICHARD BLUMENTHAL, ET AL.,

Appellees,

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES,
Appellant.
Appeal from the United States District Court for the
District of Columbia (No. 1:17-cv-01154)
[Filed on February 7, 2020]
Before: HENDERSON, TATEL and GRIFFITH,
Circuit Judges.
JUDGMENT
This cause came on to be heard on the record on
appeal from the United States District Court for the
District of Columbia and was argued by counsel. On
consideration thereof, it is
ORDERED and ADJUDGED that the first
judgment of the District Court that the Members
sustained their burden to show that they have
standing to bring their claims be reversed and the
case be remanded with instructions to dismiss the
complaint; and the second judgment of the District
Court that the Members have a cause of action and
have stated a claim be vacated as moot, in accordance with the opinion of the court filed herein this
date.

App. 2
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

App. 3
IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5237
RICHARD BLUMENTHAL, ET AL.,

Appellees,

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES,
Appellant.
Appeal from the United States District Court for the
District of Columbia (No. 1:17-cv-01154)
[Decided February 7, 2020]
Before: HENDERSON, TATEL and GRIFFITH,
Circuit Judges.
Opinion for the Court filed PER CURIAM.
PER CURIAM: In this case, 215 Members of the
Congress (Members) sued President Donald J. Trump
based on allegations that he has repeatedly violated
the United States Constitution’s Foreign Emoluments Clause (Clause). The district court’s denial of
the President’s motion to dismiss begins with a legal
truism: “When Members of Congress sue the President in federal court over official action, a court must
first determine whether the dispute is a ‘Case’ or
‘Controversy’ under Article III of the United States
Constitution, rather than a political dispute between
the elected branches of government.” Blumenthal v.
Trump, 335 F. Supp. 3d 45, 49–50 (D.D.C. 2018). Although undoubtedly accurate, the district court’s ob-

App. 4
servation fails to tell the rest of the story, which story
we set forth infra. Because we conclude that the
Members lack standing, we reverse the district court
and remand with instructions to dismiss their complaint.
I
Troubled that “one of the weak sides of Republics
was their being liable to foreign influence & corruption,” 1 The Records of the Federal Convention of 1787
289 (Max Farrand ed., 1911), the Framers prohibited
“Person[s] holding any Office of Profit or Trust under”
the United States from accepting from a foreign sovereign “any present, Emolument, Office, or Title, of
any kind whatever” without the “Consent of the Congress.”1 Justice Joseph Story described the Clause as
“founded in a just jealousy of foreign influence of every sort,” although he found it “doubtful” that “in a
practical sense, it can produce much effect” because
[a] patriot will not be likely to be seduced from his duties to his country by
the acceptance of any title, or present,
from a foreign power. An intriguing, or
corrupt agent, will not be restrained
from guilty machinations in the service
of a foreign state by such constitutional
restrictions.
3 Joseph Story, Commentaries on the Constitu1 “No Title of Nobility shall be granted by the United States:
And no Person holding any Office of Profit or Trust under them,
shall, without the Consent of the Congress, accept of any present, Emolument, Office, or Title, of any kind whatever, from
any King, Prince, or foreign State.” U.S. CONST. art. I, § 9, cl. 8.

App. 5
tion of the United States § 1346 (Boston, Hilliard,
Gray, & Co. 1833). The Members allege that President Trump “has a financial interest in vast business
holdings around the world that engage in dealings
with foreign governments and receive benefits from
those governments” and that “[b]y virtue of that financial interest, [he] has accepted, or necessarily will
accept, ‘Emoluments’ from ‘foreign States’ while holding the office of President.” Second Amended Complaint at ¶ 2, Blumenthal v. Trump, No. 17-1154
(D.D.C. June 26, 2019), ECF No. 83 (brackets omitted). They allege the President’s failure to seek and
obtain congressional consent has “completely nullified,” id. at ¶ 82, the votes they are authorized to cast
to approve or disapprove his acceptance of foreign
emoluments. See id. at ¶ 3 (“Because the Foreign
Emoluments Clause requires the President to obtain
‘the Consent of the Congress’ before accepting otherwise prohibited ‘Emoluments,’ Plaintiffs, as members
of Congress, must have the opportunity to cast a
binding vote that gives or withholds their ‘Consent’
before the President accepts any such ‘Emolument.’”)
(bracket omitted). They further allege that the Clause
is “unique.” Appellees’ Br. at 6.
First, the Clause imposes a procedural
requirement (obtain “the Consent of the
Congress”) that federal officials must
satisfy before they take a specific action
(accept “any” emolument from “any . . .
foreign State”). U.S. Const. art. I, § 9, cl.
8. This requirement of a successful prior
vote, combined with the right of each
Senator and Representative to participate in that vote, means that every time
the President accepts an emolument
without first obtaining congressional

App. 6
consent, Plaintiffs are deprived of their
right to vote on whether to consent to its
acceptance.
Second, the Foreign Emoluments
Clause regulates the private conduct of
federal officials. Because President
Trump is violating the Clause through
his private businesses, without the need
for government funds or personnel,
Congress cannot use its power of the
purse—normally the “ultimate weapon
of enforcement available to the Congress”—to stop him. United States v.
Richardson, 418 U.S. 166, 178 n.11
(1974). Without that tool or any other
effective means of forcing President
Trump to conform his personal conduct
to the Clause’s requirements, [the
Members] have no adequate legislative
remedy for the President’s denial of
their voting rights.
Id. at 6–7.
The Members filed their complaint on June 14,
2017, seeking declaratory and injunctive relief
against the President in his official capacity. The
President moved to dismiss, arguing that 1) the
Members lack standing; 2) no cause of action authorized their lawsuit; 3) they failed to state a claim upon
which relief could be granted; and 4) the requested
relief, an injunction against the President in his official capacity, violates the Constitution. Statement of
Points and Authorities in Support of Defendant’s Motion to Dismiss, Blumenthal, 335 F. Supp. 3d 45
(D.D.C. 2018) (No. 17-1154), ECF No. 15-1. The district court bifurcated the issues, addressed standing
first and held that the Members “sustained their

App. 7
burden to show that they have standing to bring their
claims.” Blumenthal, 335 F. Supp. 3d at 54. The President then moved to certify the district court’s standing order for interlocutory appeal under 28 U.S.C. §
1292(b), Defendant’s Motion for Certification of the
Court’s September 28, 2018 Order Pursuant to 28
U.S.C. § 1292(b), Blumenthal v. Trump, 382 F. Supp.
3d 77 (D.D.C. 2019) (No. 17-1154), ECF No. 60, which
motion was denied on June 25, 2019, 382 F. Supp. 3d
at 83. While the certification motion was pending, the
district court denied the remainder of the President’s
motion to dismiss, holding that the Members had an
implied equitable cause of action for injunctive relief
and that they had stated a claim under the Clause.
Blumenthal v. Trump, 373 F. Supp. 3d 191, 207–
09 (D.D.C. 2019). The President again moved for interlocutory appeal, Motion for Certification for Interlocutory Appeal, 382 F. Supp. 3d 77 (D.D.C. 2019)
(No. 17-1154), ECF No. 71, and this motion was also
denied, 382 F. Supp. 3d at 77. Having exhausted his
options in district court, the President petitioned our
court for a writ of mandamus. Petition for a Writ of
Mandamus to the United States District Court for the
District of Columbia & Motion for Stay of District
Court Proceedings Pending Mandamus, In re Trump,
781 F. App’x 1 (D.C. Cir. 2019) (No. 19-5196). We denied the petition without prejudice but remanded the
matter “for immediate reconsideration of the motion
to certify.” In re Trump, 781 F. App’x at 2. On reconsideration, the district court certified both dismissal
denials for interlocutory appeal and stayed its proceedings. Blumenthal v. Trump, No. 17-1154, 2019
WL 3948478, at *3 (D.D.C. Aug. 21, 2019). We then
granted the interlocutory appeal. In re Trump, No.
19-8005, 2019 WL 4200443, at *1 (D.C. Cir. Sept. 4,
2019).

App. 8
On appeal of a dismissal denial, we review the
district court’s legal determinations de novo and assume the truth of the plaintiff’s material factual allegations. Z Street v. Koskinen, 791 F.3d 24, 28 (D.C.
Cir. 2015). The district court’s jurisdiction “aris[es]
under the Constitution . . . of the United States.” 28
U.S.C. § 1331. We have jurisdiction under 28 U.S.C. §
1292(b).
II
“[N]o principle is more fundamental to the judiciary’s proper role in our system of government than
the constitutional limitation of federal-court jurisdiction to actual cases or controversies. Standing to sue
is a doctrine rooted in the traditional understanding
of a case or controversy.” Spokeo, Inc. v. Robins, 136
S. Ct. 1540, 1547 (2016) (quoting Raines v. Byrd, 521
U.S. 811, 818 (1997)) (bracket and quotation marks
omitted). To establish Article III standing, a plaintiff
must, as an “irreducible constitutional minimum[,] . .
. (1) suffer[] an injury in fact, (2) that is fairly traceable to the challenged conduct of the defendant, and
(3) that is likely to be redressed by a favorable judicial decision.” Id. (citing Lujan v. Defs. of Wildlife,
504 U.S. 555, 560–61 (1992) (quotation marks omitted)). Put differently, our standing inquiry precedes
our merits analysis and “focuses on whether the
plaintiff is the proper party to bring [the] suit.”2
2

Different plaintiffs have sued under both the Foreign and
Domestic Emoluments Clauses, see U.S. CONST. art. II, § 1, cl.
7, in cases currently traversing the courts. See Citizens for Responsibility & Ethics in Washington v. Trump, 939 F.3d 131 (2d
Cir. 2019) (private parties in hospitality industry allege harm to
their business interests caused by the President’s unauthorized
receipt of emoluments.); In re Trump, 928 F.3d 360, 365 (4th
Cir.) (District of Columbia and State of Maryland allege “harm

App. 9
Raines, 521 U.S. at 818.
Raines is our starting point when individual
members of the Congress seek judicial remedies. In
that case, six members of the Congress challenged
the constitutionality of the Line Item Veto Act, 2
U.S.C. §§ 691 et seq. (1994 ed., Supp. II), claiming
that it “unconstitutionally expand[ed] the President’s
power, and violate[d] the requirements of bicameral
passage and presentment by granting to the President, acting alone, the authority to ‘cancel’ and thus
repeal provisions of federal law,” Raines, 521 U.S. at
816 (first quotation marks omitted). The Raines
plaintiffs alleged they were harmed because the statute “diluted their Article I voting power.” Id. at 817
(bracket omitted). The district court found the Raines
plaintiffs had standing but, on direct appeal, the Supreme Court reversed, holding that they lacked
standing.
This case is really no different from Raines. The
Members were not singled out—their alleged injury is
shared by the 320 members of the Congress who did
not join the lawsuit—and their claim is based entirely
on the loss of political power. See Second Amended
Complaint at ¶ 5, Blumenthal v. Trump, No. 17-1154
(D.D.C. June 26, 2019), ECF No. 83 (“Defendant has
. . . denied Plaintiffs the opportunity to give or withhold their ‘Consent’ to his acceptance of individual
emoluments and has injured them in their roles as
members of Congress.”). We can, therefore, resolve
this case by simply applying Raines. That is, we need
not—and do not—consider whether or how Raines
to their sovereign and/or quasi-sovereign interests, as well as
proprietary and other financial harms”) (quotation marks omitted), reh’g en banc granted, 780 F. App’x 36 (4th Cir. 2019).

App. 10
applies elsewhere in order to determine that it plainly applies here. See Cohen v. Bd. of Trs. of the Univ.
of the Dist. of Columbia, 819 F.3d 476, 485 (D.C. Cir.
2016) (The “cardinal principle of judicial restraint” is
“if it is not necessary to decide more, it is necessary
not to decide more.” (quoting PDK Labs, Inc. v.
D.E.A., 362 F.3d 786, 799 (D.C. Cir. 2004) (Roberts,
J., concurring in part and concurring in the judgment))).
The Supreme Court’s recent summary reading of
Raines that “individual members” of the Congress
“lack standing to assert the institutional interests of
a legislature” in the same way “a single House of a
bicameral legislature lacks capacity to assert interests belonging to the legislature as a whole,” Va.
House of Delegates v. Bethune-Hill, 139 S. Ct. 1945,
1953–54 (2019), puts paid to any doubt regarding the
Members’ lack of standing. Here, the (individual)
Members concededly seek to do precisely what Bethune-Hill forbids. See Appellees’ Br. at 12 (asserting
Members’ entitlement “to vote on whether to consent
to an official’s acceptance of a foreign emolument before he accepts it . . . is not a private right enjoyed in
[his] personal capacity, but rather a prerogative of his
office.”).
The district court erred in holding that the Members suffered an injury based on “[t]he President . . .
depriving [them] of the opportunity to give or withhold their consent [to foreign emoluments], thereby
injuring them in their roles as members of Congress.”
Id. at 62 (quotation marks omitted). After Raines and
Bethune-Hill, only an institution can assert an institutional injury provided the injury is not “wholly abstract and widely dispersed.” Raines, 521 U.S. at

App. 11
829.3
The district court misread Raines in declaring
that “Raines . . . teaches that it is not necessary for an
institutional claim to be brought by or on behalf of
the institution.” Blumenthal, 335 F. Supp. 3d at 58
(emphasis added). Its confusion may be partially due
to timing—the district court ruled before BethuneHill, which was decided the following year.
Our standing inquiry is “especially rigorous” in a
case like this, where “reaching the merits of the dispute would force us to decide whether an action taken
by one of the other two branches of the Federal Government was unconstitutional.” Id. at 819–20; see also Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm’n, 135 S. Ct. 2652, 2665 n.12 (2015) (“[S]uit
between Congress and the President would raise separation-of-powers concerns absent” in litigation
brought by state legislature). Here, regardless of rigor, our conclusion is straightforward because the
Members—29 Senators and 186 Members of the
House of Representatives—do not constitute a majority of either body and are, therefore, powerless to approve or deny the President’s acceptance of foreign
emoluments. See United States v. Ballin, 144 U.S. 1,
3

The High Court recognized a narrow exception in Coleman v.
Miller, 307 U.S. 433 (1939), in which it held that members of the
Kansas legislature had standing to challenge the “nullification”
of their votes on a proposed constitutional amendment. But
Coleman— to the extent it survives—is inapposite here because
it “stands (at most) for the proposition that legislators whose
votes would have been sufficient to defeat (or enact) a specific
legislative Act have standing to sue if that legislative action goes
into effect (or does not go into effect), on the ground that their
votes have been completely nullified.” Raines, 521 U.S. at 823
(emphasis added) (citation omitted).

App. 12
7 (1892) (“The two houses of [C]ongress are legislative bodies representing larger constituencies. Power
is not vested in any one individual, but in the aggregate of the members who compose the body[.]”). For
standing, the Members’ inability to act determinatively is important, see Raines, 521 U.S. at 829, and,
conversely, the size of their cohort is not—so long as
it is too small to act. That is, we assess this complaint—filed by 215 Members—no differently from
our assessment of a complaint filed by a single Member.4
Because Raines and Bethune-Hill control this
case, we begin and end our analysis with them. 5
The Members can, and likely will, continue to use
their weighty voices to make their case to the American people, their colleagues in the Congress and the
President himself, all of whom are free to engage that
argument as they see fit. But we will not—indeed we
cannot—participate in this debate. The Constitution
permits the Judiciary to speak only in the context of
4

The Members do not represent either House of the Congress,
an issue the Members concede, see Transcript of Oral Argument
at 24, Blumenthal v. Trump, No. 19-5237 (D.C. Cir. Dec. 9,
2019) (“JUDGE GRIFFITH: You are not here representing the
House of Representatives, correct? MS. WYDRA: Correct ….…
JUDGE GRIFFITH: You are not here representing the Senate of
the United States. MS. WYDRA: You are absolutely correct.”),
much less the entire Legislative Branch.
5

Our own precedent confirms that the Members lack standing. See Chenoweth v. Clinton, 181 F.3d 112 (D.C. Cir. 1999)
(four House members lacked standing to challenge executive
order signed by President); Campbell v. Clinton, 203 F.3d 19
(D.C. Cir. 2000) (thirty-one congressmen lacked standing to seek
declaratory judgment that President’s use of force against Yugoslavia was unlawful).

App. 13
an Article III case or controversy and this lawsuit
presents neither.
Because the district court bifurcated the motion
to dismiss proceedings, two of its judgments are before us on appeal. With regard to the first, in which
the district court held that the Members have standing, Blumenthal, 335 F. Supp. 3d 45, we reverse and
remand with instructions to dismiss the complaint.
The second, in which the district court held that the
Members have a cause of action and have stated a
claim, Blumenthal, 373 F. Supp. 3d 191, is vacated as
moot.
So ordered.

App. 14
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
Civil Action No. 17-1154 (EGS)
SENATOR RICHARD BLUMENTHAL, ET AL.,
Plaintiffs,
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES,
Defendant.
[Filed September 28, 2018]
ORDER
For the reasons stated in the accompanying
Memorandum Opinion, the Court finds that plaintiffs
have standing to sue the President for allegedly violating the Foreign Emoluments Clause of the United
States Constitution. It is hereby
ORDERED that the motion to dismiss is DENIED IN PART and DEFERRED IN PART. The
Court will schedule a motion hearing should it determine one to be necessary to resolve the remaining
issues.
SO ORDERED.
Signed:

Emmet G. Sullivan
United States District Judge
September 28, 2018

App. 15
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
Civil Action No. 17-1154 (EGS)
SENATOR RICHARD BLUMENTHAL, ET AL.,
Plaintiffs,
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES,
Defendant.
[Decided September 28, 2018]
MEMORANDUM OPINION
I. Introduction
When Members of Congress sue the President in
federal court over official action, a court must first
determine whether the dispute is a “Case” or “Controversy” under Article III of the United States Constitution, rather than a political dispute between the
elected branches of government. A critical part of this
inquiry is whether the plaintiffs have legal standing
to bring the action. Whether legislators have standing to sue often turns on whether they can obtain the
remedy they seek from the court from fellow legislators. When a legislative remedy is available, courts
generally dismiss the case on jurisdictional grounds.
The Supreme Court, however, has not foreclosed federal courts from appropriately exercising jurisdiction
over certain types of disputes between the political
branches. This case is one of those disputes. And
when a case is properly before a court because it presents an Article III “Case” or “Controversy,” it is the
role of the Judiciary “to say whatthe law is.” Marbury

App. 16
v. Madison, 1 Cranch 137, 177 (1803).
Plaintiffs, approximately 201 minority Members
of the 535 Members of the United States Senate and
House of Representatives, allege that Donald J.
Trump in his official capacity as President of the
United States (“the President”) is violating the Foreign Emoluments Clause (“Clause”). Under this
Clause, certain federal officials, including the President, may not “accept” an “emolument” from “any
King, Prince or foreign State” without “the Consent of
Congress.” U.S Const. art. I, § 9, cl. 8. In Count I,
plaintiffs seek declaratory relief pursuant to 28
U.S.C. § 2201 in the form of a declaratory judgment
stating that the President is violating the Clause
when he accepts emoluments from foreign states
without first seeking the consent of Congress. Am.
Compl., ECF No. 14 ¶¶ 85-86. In Count II, plaintiffs
seek injunctive relief pursuant to the Court’s inherent authority to grant equitable relief and pursuant
to 18 U.S.C. § 1331 in the form of a Court order enjoining the President from accepting “any present,
Emolument, Office, or Title, of any kind whatever”
from a foreign state without obtaining “the Consent
of Congress.” Id. ¶ 92.
Pending before the Court is the President’s motion to dismiss. The President argues that this case
should be dismissed on four independent grounds, 1

1

The President seeks dismissal on these grounds: (1) lack of
subject matter jurisdiction because plaintiffs do not have standing to bring their claims; (2) lack of a cause of action to seek the
relief requested; (3) failure to state a claim upon which relief can
be granted; and (4) the injunctive relief sought is unconstitutional. Def.’s Mot. to Dismiss (“Mot. to Dismiss”), ECF No. 15-1
at 17-18.

App. 17
but the threshold question is whether plaintiffs have
standing to bring their claims. This opinion addresses
only this threshold question. With respect to the
grounds for dismissal that turn on the merits, the
parties dispute whether the profits that the President’s business interests earn from foreign governments are covered “emoluments.” However, for the
purpose of determining whether plaintiffs have
standing to sue, the Court must accept as true the
allegations that the President has accepted prohibited foreign emoluments without seeking the consent of
Congress.
As is explained more fully below, the central
question for standing purposes is how to characterize
the injury that occurs when the President fails to
seek the consent of Congress, as required by the
Clause. Plaintiffs argue that each Member of Congress suffers a particularized and concrete injury
when his or her vote is nullified by the President’s
denial of the opportunity to vote on the record about
whether to approve his acceptance of a prohibited
foreign emolument. The President argues that this is
an intra-branch dispute which does not belong in federal court because the plaintiffs’ remedy is to convince a majority of their colleagues in both Houses to
pass legislation addressing the President’s ability to
accept prohibited foreign emoluments.
Upon careful consideration of the President’s motion to dismiss, the opposition and reply thereto, the
relevant arguments of amici,2 the parties’ arguments

2 The Court appreciates the illuminating analysis provided by
the amici.

App. 18
at the June 7, 2018 motion hearing, and for the reasons explained below, the Court finds that the plaintiffs have standing to sue the President for allegedly
violating the Foreign Emoluments Clause. The Court
therefore DENIES IN PART the motion to dismiss
and DEFERS ruling on the remaining arguments in
the motion to dismiss.
II. Factual Background
Relevant to whether they have standing to bring
their claims, plaintiffs allege that the President “has
a financial interest in vast business holdings around
the world that engage in dealings with foreign governments and receive benefits from those governments.” Am. Compl., ECF No. 14 ¶ 2. Plaintiffs also
allege that the President owns “‘more than 500 separate entities–hotels, golf courses, media properties,
books, management companies, residential and commercial buildings . . . airplanes and a profusion of
shell companies set up to capitalize on licensing
deals.’” Id. ¶ 34 (citation omitted).
As a result of his financial interests, plaintiffs allege the President has accepted, and will accept in
the future, emoluments from foreign states. Id. Indeed, the President has acknowledged “that his businesses receive funds and make a profit from payments by foreign governments, and that they will
continue to do so while he is President.” Id. ¶ 37.
Public reporting has also confirmed this to be the
case. Id. The President, through his personal attorney, has likewise asserted that the Constitution does
not require “him to seek or obtain Congress’ consent
before accepting benefits arising out of exchanges between foreign states and his businesses.” Id. ¶ 40.
The President has therefore not provided any information to Congress about any foreign emoluments he
has received. Id. ¶ 41. Plaintiffs allege that because

App. 19
the President has denied them the opportunity to
give or withhold their consent, he has injured them in
their roles as Members of Congress, id. ¶ 5, and that
they cannot force the President to comply with the
Constitution absent a judicial order, id. ¶ 83.
III. Standard of Review
A motion to dismiss for lack of standing is properly considered a challenge to the Court's subject matter jurisdiction and should be reviewed under Federal
Rule of Civil Procedure 12(b)(1). Haase v. Sessions,
835 F.2d 902, 906 (D.C. Cir. 1987)(“[T]he defect of
standing is a defect in subject matter jurisdiction.”).
The Court must therefore consider the defendant’s
motion to dismiss pursuant to Rule 12(b)(1) before
reaching a merits challenge pursuant to Rule
12(b)(6). Sinochem Int’l Co. v. Malay Int’l Shipping
Corp., 549 U.S. 422, 430-31 (2007). To survive a Rule
12(b)(1) motion to dismiss, the plaintiff bears the
burden of establishing jurisdiction by a preponderance of the evidence. Moran v. U.S. Capitol Police
Bd., 820 F. Supp. 2d 48, 53 (D.D.C. 2011) (citing
Lujan v. Defenders of Wildlife, 504 U.S. 555, 561
(1992)). “Because Rule 12(b)(1) concerns a court's
ability to hear a particular claim, the court must
scrutinize the plaintiff's allegations more closely
when considering a motion to dismiss pursuant to
Rule 12(b)(1) than it would under a motion to dismiss
pursuant to Rule 12(b)(6).” Schmidt v. U.S. Capitol
Police Bd., 826 F. Supp. 2d 59, 65 (D.D.C. 2011). In so
doing, the court must accept as true all of the factual
allegations in the complaint and draw all reasonable
inferences in favor of plaintiffs, but the court need
not “accept inferences unsupported by the facts alleged or legal conclusions that are cast as factual allegations.” Rann v. Chao, 154 F. Supp. 2d 61, 63
(D.D.C. 2001).

App. 20
IV. Analysis
A. Standing
“Article III of the Constitution limits the jurisdiction of the federal courts to ‘Cases’ and ‘Controversies.’” Susan B. Anthony List v. Driehaus, 134 S. Ct.
2334, 2341 (2014) (quoting U.S. Const. art. III, § 2).
“‘One element of the case-or- controversy requirement’ is that plaintiffs ‘must establish that they have
standing to sue.’” Clapper v. Amnesty Int’l USA, 568
U.S. 398, 408 (2013) (quoting Raines v. Byrd, 521
U.S. 811, 818 (1997)). The standing requirement
“serves to prevent the judicial process from being
used to usurp the powers of the political branches.”
Id. The standing inquiry “often turns on the nature
and source of the claim asserted” and the specific
facts alleged. Warth v. Seldin, 422 U.S. 490, 500
(1975). “[T]he law of Art. III standing is built on a
single basic idea—the idea of separation of powers.”
Allen v. Wright, 468 U.S. 737, 752 (1984).
To establish standing, “a plaintiff must show (1)
an ‘injury in fact,’ (2) a sufficient ‘causal connection
between the injury and the conduct complained of,’
and (3) a ‘likel[ihood]’ that the injury ‘will be redressed by a favorable decision.’” Susan B. Anthony
List, 134 S. Ct. at 2341 (quoting Lujan, 504 U.S. at
560-61 (1992)); see also Hollingsworth v. Perry, 570
U.S. 700, 705 (2013) (“To have standing, a litigant
must seek relief for an injury that affects him in a
personal and individual way.”). These requirements
help to “assure that the legal questions presented to
the court will be resolved, not in the rarified atmosphere of a debating society, but in a concrete factual
context conducive to a realistic appreciation of the
consequences of judicial action.” Valley Forge Christian Coll. v. Ams. United for Separation of Church &
State, Inc., 454 U.S. 464, 472 (1982). “The [effect of

App. 21
the] exercise of judicial power [is] most vivid when a
federal court declares unconstitutional an act of the
Legislative or Executive Branch.” Id. at 473. Therefore, to ensure the “continued effectiveness of the federal courts in performing that role . . . it has been
recognized as a tool of last resort.” Id. at 473-74.
“The party invoking federal jurisdiction bears the
burden of establishing these elements.” Lujan, 504
U.S. at 561 (citations omitted). “Since they are not
mere pleading requirements but rather an indispensable part of the plaintiff's case, each element must
be supported in the same way as any other matter on
which the plaintiff bears the burden of proof, i.e.,
with the manner and degree of evidence required at
the successive stages of the litigation.” Id.
When considering whether a legislator has standing, the Court “must carefully inquire as to whether
[plaintiffs] have met their burden of establishing that
their claimed injury is personal, particularized, concrete, and otherwise judicially cognizable.” Raines,
521 U.S. at 820. The “standing inquiry [is] especially
rigorous when reaching the merits of the dispute
would force us to decide whether an action taken by
one of the other two branches of the Federal Government was unconstitutional.” Id. at 819-20.
B. Foreign Emoluments Clause
The Foreign Emoluments Clause provides:
No Title of Nobility shall be granted by
the United States: And no Person holding any Office of Profit or Trust under
them, shall, without the Consent of the
Congress, accept of any present, Emolument, Office, or Title, of any kind
whatever, from any King, Prince, or foreign State.

App. 22
U.S Const. art. I, § 9, cl. 8. “[T]he language of the
Emoluments Clause is both sweeping and unqualified.” 17 Op. O.L.C. 114, 121 (1993). The acceptance
of an emolument barred by the Clause is prohibited
unless Congress chooses to permit an exception. Id.;
see also Letter from James Madison to David Humphreys
(Jan.
5,
1803),
https://founders.archives.gov/documents/Madison/0204-02- 0275# (“the Constitution of the United States
has left with Congress the exclusive authority to
permit the acceptance of presents from foreign Governments by persons holding Offices under the United States”). And the President may not accept any
emolument until Congress votes to give its consent.
The Clause was intended by the Framers to
guard against “corruption and foreign influence.” 3
M. Farrand, Records of the Federal Convention of
1787, 327 (1966). Historically, Presidents have complied with the Clause by either seeking and obtaining
congressional consent prior to accepting foreign presents or emoluments, or by requesting an opinion
from the Executive or Legislative Branch’s advisory
office as to whether the Clause applies.3 See Br. of
Federal Jurisdiction and Constitutional Law Scholars
as Amici Curiae in Support of Pls., ECF No. 44 at 24.4

3

In deciding a motion to dismiss, “a Court may take judicial
notice of historical, political, or statistical facts, or any other
facts that are verifiable with certainty.” Youkelsone v. FDIC, 910
F. Supp. 2d 213, 221 (D.D.C. 2012) (citing Mintz v. FDIC, 729 F.
Supp. 2d 276, 278 n.2 (D.D.C. 2010)).
4

When citing electronic filings throughout this opinion, the
Court cites to the ECF header page number, not the original
page number of the filed document.

App. 23
One such example occurred in 1830 when President
Jackson placed “‘at the disposal of Congress’” a gold
medal presented to him by the Republic of Colombia,
noting that accepting presents from a foreign government is prohibited by the Constitution. Id. (quoting Message of President Andrew Jackson to the
Senate and House of Representatives, dated January
19, 1830, 3 Compilation of the Messages and Papers
of the Presidents 1029, 1030 (James D. Richardson
ed., 1897)). Similarly, when the King of Siam presented President Lincoln with various gifts, he informed Congress, which directed that the gifts “‘be
deposited in the collection of curiosities at the Department of Interior.’” Id. at 25 (quoting Joint Resolution No. 20, A Resolution providing for the Custody
of the Letter and Gifts from the King of Siam, Res.
20, 37th Cong., 12 Stat. 616 (1862)).
Modern Presidents, except for President Trump,
have sought advice from the Department of Justice
Office of Legal Counsel (“OLC”) prior to accepting potentially covered emoluments. Id. For example, President Kennedy requested an opinion on whether the
offer of an “honorary Irish citizenship” would fall
within the scope of the Clause. Id. (citing 1 Op.
O.L.C. Supp. at 278). And prior to his acceptance of
the Nobel Peace Prize in 2009, President Obama requested an opinion from OLC as to whether accepting
the prize would conflict with the Clause. Id.
Since the Clause prohibits the President from accepting a prohibited foreign emolument unless Congress votes to consent, the Constitution gives each
individual Member of Congress a right to vote before
the President accepts. Under the Constitution, Congress expresses its consent through the combined
votes of its individual members. U.S. Const. art. I, §
9, cl. 8. Congress “consist[s] of a Senate and House of

App. 24
Representatives.” Id. art. I, § 1. The “Consent of Congress” is obtained when a majority of the individual
members of each House vote to consent. Id. art. I, § 3,
cl. 1 (“each Senator shall have one Vote”); id. art. I, §
5, cl. 3 (requiring, at the request of one-fifth of those
present, that “the Yeas and Nays of the Members of
either House on any question” to be recorded). That
Congress acts as “the body as a whole”5 in providing
or denying consent does not alter each Member’s constitutional right to vote before the President accepts a
prohibited foreign emolument because the body can
give its consent only through a majority vote of its individual members.
C. Plaintiffs Have Standing to Bring Their
Claim
The President argues that the Court lacks jurisdiction over plaintiffs’ claims because plaintiffs have
not met their burden to establish a judicially cognizable injury as is required by Article III. Def.’s Mot. to
Dismiss (“Mot. to Dismiss”), ECF No. 15 at 21-28;
Def.’s Reply (“Reply”), ECF No. 28 at 10-19. The President also disputes that the alleged injury is fairly
traceable to him. Mot. to Dismiss, ECF No. 15-1 at
24; Reply, ECF No. 28 at 8.
Plaintiffs contend that they have standing: (1)
the injury- in-fact they have suffered is that the Pres-

5

United States v. Ballin, 144 U.S. 1, 7 (1892) (“The two houses of congress are legislative bodies representing larger constituencies. Power is not vested in any one individual, but in the
aggregate of the members who compose the body, and its action
is not the action of any separate member or number of members,
but the action of the body as a whole.”).

App. 25
ident has denied them a voting opportunity to which
the Constitution entitles them; (2) the injury is fairly
traceable to the President’s conduct because he has
neither asked for their consent nor provided them
with any information about the prohibited foreign
emoluments he has already allegedly accepted; and
(3) the injury can be redressed by a favorable judicial
decision if the Court requires the President to obtain
congressional consent before accepting prohibited foreign emoluments. Pls.’ Opp’n, ECF No. 17 at 13.
As discussed below, the President’s arguments
rely on a repeated misstatement of the injury alleged
and on proffers of plainly inadequate legislative remedies. The Court is persuaded that plaintiffs have
sustained their burden to show that they have standing to bring their claims: (1) they have adequately alleged a judicially cognizable injury that is fairly
traceable to the President and can be redressed by a
favorable judicial decision; and (2) although plaintiffs’
claims raise separation- of-powers concerns, plaintiffs
have no adequate legislative remedy and this dispute
is capable of resolution through the judicial process.
1. Supreme Court and D.C. Circuit Precedent
a. Raines v. Byrd
The parties rely heavily on the Supreme Court’s
decision in Raines v. Byrd. See generally Mot. to Dismiss, ECF No. 15-1; Pls.’ Opp’n, ECF No. 17; Reply,
ECF No. 28 (discussing Raines, 521 U.S. 811 (1997)).
The President argues that plaintiffs lack standing
pursuant to Raines; plaintiffs respond that Raines
does not foreclose their standing to bring their claims
and indeed provides support for it. The Court will
therefore discuss the case in detail.
In Raines, six members of Congress who had vot-

App. 26
ed against the Line Item Veto Act (“Act”) sued the
Secretary of the Treasury and the Director of the Office of Management and Budget, challenging the constitutionality of the Act. Raines, 521 U.S. at 814. The
Act authorized the President to “‘cancel’ certain
spending and tax benefit measures after he ha[d]
signed them into law.” Id. The plaintiffs claimed that
the Act injured them in their official capacities by: (1)
“‘alter[ing] the legal and practical effect of all votes
they may cast on bills’” subject to the Act; (2) “‘divest[ing] [them] of their constitutional role in the repeal of legislation’”; and (2) “‘alter[ing] the constitutional balance of powers between the Legislative and
Executive Branches . . . .’” Id. at 816 (quoting
Compl.).
At issue was whether the plaintiffs had standing
to bring their claims. The Court began its inquiry by
focusing on the requirement in standing analysis that
the injury be a personal one: “We have consistently
stressed that a plaintiff’s complaint must establish
that he has a ‘personal stake’ in the alleged dispute,
and that the alleged injury suffered is particularized
as to him.” Id. at 819 (quoting Lujan, 504 U.S. at 56061 and n.1). Next, the Court noted “[w]e have also
stressed that the alleged injury must be legally and
judicially cognizable. This requires, among other
things, that the plaintiff have suffered ‘an invasion of
a legally protected interest which is . . . concrete and
particularized,’ Lujan, 504 U.S. at 560, and that the
dispute is ‘traditionally thought to be capable of resolution through the judicial process.’” Id. (quoting
Flast v. Cohen, 392 U.S. 83, 97 (1968)). Finally, the
Court noted that the jurisdictional standing requirement must be strictly complied with: “our standing
inquiry has been especially rigorous when reaching
the merits of the dispute would force us to decide

App. 27
whether an action taken by one of the other two
branches of the Federal Government was unconstitutional.” Id. at 819-20 (citations omitted). “‘[T]he law of
Art. III standing is built on a single basic idea—the
idea of separation of powers.’” Id. at 820 (quoting Allen, 468 U.S. at 751). In view of these observations,
the Court concluded that it “must carefully inquire as
to whether appellees have met their burden of establishing that their claimed injury is personal, particularized, concrete, and otherwise judicially cognizable.” Id.
The Court distinguished Powell v. McCormack, in
which it held that a Congressman’s “constitutional
challenge to his exclusion from the House of Representatives (and his consequent loss of salary) presented an Article III case or controversy,” id. at 82021 (citing Powell, 395 U.S. 486, 496, 512-14 (1969)),
on two grounds. First, the Raines plaintiffs had not
been singled out for unfavorable treatment from the
other members of their respective bodies as occurred
in Powell; rather, “[t]heir claim is that the Act causes
a type of institutional injury (the diminution of legislative power), which necessarily damages all Members of Congress and both Houses of Congress equally.” Id. at 821. Second, the Raines plaintiffs “[did] not
claim that they have been deprived of something to
which they are personally entitled . . .” id.; rather,
their
claim of standing is based on a loss of
political power, not loss of any private
right, which would make the injury
more concrete. . . . [T]he injury claimed
by the Members of Congress here is not
claimed in any private capacity but solely because they are Members of Congress. If one of the Members were to re-

App. 28
tire tomorrow, he would no longer have
a claim; the claim would be possessed by
his successor instead. The claimed injury thus runs (in a sense) with the Member’s seat, a seat which the Member
holds (it may quite arguably be said) as
trustee for his constituents, not as a
prerogative of personal power.
Id. (internal citation omitted). Thus, according to the
Court, the Raines plaintiffs’ injury was an institutional one and not sufficiently concrete and personal.
The Court then distinguished Coleman v. Miller,
“[t]he one case in which we have upheld standing for
legislators (albeit state legislators) claiming an institutional injury.” Id. (discussing Coleman v. Miller,
307 U.S. 433 (1939)). In Coleman, the vote on whether to ratify a proposed federal constitutional amendment was tied at twenty to twenty, which meant the
amendment would not have been ratified. Id. at 822
(citing Coleman, 307 U.S. at 436). The Lieutenant
Governor, as the presiding officer of the State Senate, cast a vote in favor of the amendment and it was
deemed ratified. Id. The twenty state senators who
had voted against the amendment sued, and eventually the Court held that the members of the legislature had standing because “if these legislators (who
were suing as a bloc) were correct on the merits, then
their votes not to ratify the amendment were deprived of all validity.” Id. In Raines, the Court clarified that “our holding in Coleman stands . . . for the
proposition that legislators whose votes would have
been sufficient to defeat (or enact) a specific legislative Act have standing to sue if that legislative action
goes into effect (or does not go into effect), on the
ground that their votes have been completely nullified.” Id. at 823. Noting that this is what the Cole-

App. 29
man holding stands for “at most,” the Court declined
to distinguish Coleman on, inter alia, the ground
that “Coleman has no applicability to a similar suit
brought by federal legislators, since the separationof-powers concerns present in such a suit were not
present in Coleman . . . .” Id. at 824 n.8.
The Court then distinguished the claims in
Raines from those in Coleman:
[Here], [plaintiffs] have not alleged that
they voted for a specific bill, that there
were sufficient votes to pass the bill,
and that the bill was nonetheless
deemed defeated. In the vote on the Act,
their votes were given full effect. They
simply lost that vote. Nor can they allege that the Act will nullify their votes
in the future in the same way that the
votes of the Coleman legislators had
been nullified. In the future, a majority
of Senators and Congressmen can pass
or reject appropriations bills; the Act
has no effect on this process. In addition, a majority of Senators and Congressmen can vote to repeal the Act, or
to exempt a given appropriations bill (or
a given provision in an appropriations
bill) from the Act; again, the Act has no
effect on this process.
Id. at 824 (footnote omitted). Thus, according to the
Court, the Raines plaintiffs could not allege that
their votes had been nullified in the past; rather,
they had lost the vote on the Act. See id. And the
Raines plaintiffs could not allege that their votes
would be nullified in the future because they had a
variety of legislative remedies at their disposal. See
id.

App. 30
The Court then considered the lack of a historical
practice of lawsuits being filed “on the basis of
claimed injury to official authority or power” as a result of analogous confrontations between the Legislative and Executive Branches of the federal government. Id. at 826; see also infra Section IV.3.b. The
Court concluded that, under the Constitution, it is
not the role of the Article III courts to have “‘some
amorphous general supervision of the operations of
government . . . . . . . ’” Raines, 521 U.S. at 829 (quoting United States v. Richardson, 418 U.S. 166, 192
(1974) (Powell, J., concurring)).
The Court rejected the Raines plaintiffs’ basis for
standing, ultimately holding that “these individual
members of Congress do not have a sufficient ‘personal stake’ in this dispute and have not alleged a
sufficiently concrete injury to have established Article III standing.” Id. at 830 (no citation for internal
quotation in original). In so holding, the Court noted
that “appellees have alleged no injury to themselves
as individuals (contra, Powell), the institutional injury they allege is wholly abstract and widely dispersed (contra, Coleman), and their attempt to litigate this dispute at this time and in this form is contrary to historical experience.” Id. at 829. The Court
stated that it “attach[ed] some importance to the fact
that appellees have not been authorized to represent
their respective Houses of Congress in this action,
and indeed both Houses actively oppose their suit.”
Id. (footnote omitted). The Court also thought it important to note that “our conclusion [does not] deprive[] Members of Congress of an adequate remedy
(since they may repeal the Act or exempt appropriations bills from its reach) nor forecloses the Act from
constitutional challenge (by someone who suffers judicially cognizable injury as a result of the Act).” Id.

App. 31
b. Arizona State Legislature v. Arizona Independent Redistricting Commission
Relying on Coleman, the Supreme Court recently
reaffirmed that legislators, albeit state legislators as
an institutional plaintiff, have standing to sue based
on a vote nullification claim. In Arizona State Legislature v. Arizona Independent Redistricting Commission, the state legislature plaintiff challenged a ballot
measure that would have denied it the authority to
draw congressional districts. 135 S. Ct. 2652, 2659
(2015). The legislature’s alleged injury was that the
ballot initiative deprived it of its legislative prerogative to initiate redistricting. Id. at 2663. Relying on
Coleman, as clarified in Raines, the Court held that
the plaintiff had standing because “their votes have
been completely nullified.” Id. at 2665 (quoting
Raines, 521 U.S. at 823). As the Court explained,
“[o]ur conclusion that the Arizona Legislature has
standing fits [within Coleman]” because the ballot
initiative “together with the Arizona Constitution’s
ban on efforts to undermine the purposes of an initiative” would “‘completely nullif[y]’ any vote by the
Legislature, now or ‘in the future,’ purporting to
adopt a redistricting plan.” Id. at 2667 (quoting
Raines, 521 U.S. at 823-24). The Court distinguished
Raines on the grounds that Raines had not been
brought by an institutional plaintiff: “The Arizona
Legislature, in contrast, is an institutional plaintiff
asserting an institutional injury, and it commenced
this action after authorizing votes in both of its
chambers. That ‘different . . . circumstanc[e],’ was
not sub judice in Raines.” Id. at 2664 (citation omitted). The Court also noted that the case before it
“does not touch or concern the question whether
Congress has standing to bring a suit against the

App. 32
President . . . which would raise separation of powers
concerns absent here.” Id. at 2665 n.12.
*
*
*
*
*
In sum, Raines teaches that when a suit is
brought by an individual Member of Congress, the
member can allege either a personal injury or an institutional injury. If the injury is personal, standing
is present when the injury arises out of something to
which the member is personally entitled, such as the
salary associated with his or her seat. As to an institutional injury, the Court has recognized standing
when a legislator’s vote has been completely nullified.
The Supreme Court has upheld legislator standing
based on a vote nullification claim in two instances.
In Coleman, a bloc of individual state “legislators
whose votes would have beensufficient to defeat (or
enact) a specific legislative Act have standing to sue
if that legislative action goes into effect (or does not
go into effect), on the ground that their votes have
been completely nullified.” Raines, 521 U.S. at 823
(footnote omitted). In Arizona State Legislature, the
legislature, as an institutional plaintiff authorizing
the lawsuit, had standing to sue based on the alleged
nullification of their votes “now” or “in the future” as
a result of a ballot initiative. 135 S. Ct. at 2667. Although neither of these cases implicated federal separation-of-powers concerns, the Raines Court specifically declined to hold that Coleman would be inapplicable “to a similar suit brought by federal legislators.” Raines, 521 U.S. at 824 n.8.
Raines also teaches that it is not necessary for an
institutional claim to be brought by or on behalf of
the institution. Id. at 829 (“We attach some importance to the fact that appellees have not been authorized to represent their respective Houses of Congress in this action, and indeed both Houses actively

App. 33
oppose their suit.”). Indeed, in Coleman, the claim
was not brought on behalf of the state senate as an
institutional plaintiff, but rather by a bloc of individual legislators who had voted not to ratify the constitutional amendment. 307 U.S. at 436. Finally, by not
overruling Coleman, the Raines Court suggests that
vote nullification is an institutional injury that is
personal, although not in the sense that the injury in
Powell was personal, to the legislators entitled to
cast the vote that has been nullified.
Regarding the separation-of-powers concerns implicated by an inter-branch suit, Raines instructs the
Court to consider whether there is a lack of a historical practice of lawsuits being filed “on the basis of
claimed injury to official authority or power” as a result of analogous confrontations between the Legislative and Executive Branches of the federal government. Raines, 521 U.S. at 826. Raines also instructs
the Court to consider whether there is an adequate
legislative remedy and whether another plaintiff
could bring the case. Id.
c. D.C. Circuit Precedent
The Court of Appeals for the District of Columbia
Circuit (“D.C. Circuit”) has applied Raines twice,
each time finding legislator standing to be foreclosed.6 In Chenoweth v. Clinton, four members of
6

Because the Court has determined that plaintiffs have
standing to bring their claims pursuant to Raines and subsequent D.C. Circuit precedent, it need not address the parties’
arguments regarding pre-Raines D.C. Circuit authority. At oral
argument, the Court questioned plaintiffs about their reliance
on pre- Raines D.C. Circuit authority, given that Raines called
into question portions of that authority. See Chenoweth, 181
F.3d 112, 115 (D.C. Cir. 1999). In response, plaintiffs clarified

App. 34
Congress sued the President and another Executive
Branch official to enjoin the implementation of the
American Heritage Rivers Initiative (“AHRI”), a program President Clinton created by Executive Order.
181 F.3d 112, 112 (D.C. Cir. 1999). After President
Clinton announced his intention to create the AHRI,
three of the four plaintiffs introduced a bill to end the
program, but it never came to a vote. Id. at 113.
Plaintiffs then sued, alleging that the President’s
creation of the program by Executive Order “deprived
[the plaintiffs] of their constitutionally guaranteed
responsibility of open debate and vote on issues and
legislation involving interstate commerce, federal
lands, the expenditure of federal monies, and implementation of the [National Environmental Policy
Act].” Id. (citing Compl.). Applying Raines, the Court
held that the plaintiffs lacked standing because the
injury they alleged was “a dilution of their authority
as legislators,” which was “identical to the injury the
Court in Raines deprecated as ‘widely dispersed’ and
‘abstract.’” Id. at 115 (no citation for internal quotation in original). The Court reasoned that “[i]f, as the
Court held in Raines, a statute that allegedly ‘divests
[congressmen] oftheir constitutional role’ in the legislative process does not give them standing to sue,
then neither does an Executive Order that allegedly
deprives congressmen of their ‘right[] to participate
and vote on legislation in a manner defined by the
Constitution.’” Id. (citation omitted). A central element of the Court’s reasoning was that “[i]t [was] uncontested that the Congress could terminate the
AHRI were a sufficient number in each House so intheir reliance on Raines and post-Raines D.C. Circuit precedent
for the proposition that they have standing based on their vote
nullification claim. Hr’g Tr., ECF No. 54 at 20:22-24.

App. 35
clined.” Id. at 116.
In view of the Supreme Court’s decision in
Raines, the Court considered whether its earlier ruling in Kennedy v. Sampson survived. Id. at 116-17
(discussing Kennedy v. Sampson, 511 F.2d 430 (D.C.
Cir. 1974)). In Kennedy, the Court held, partially relying on the pre-Raines understanding of Coleman,
that an individual Senator had standing to challenge
a Presidential pocket veto. Kennedy, 511 F.2d at 43335. Noting that Raines narrowed the Coleman holding, the Court stated that Kennedy may nonetheless
remain good law:
Even under this narrow interpretation,
one could argue that the plaintiff in
Kennedy had standing. The pocket veto
challenged in that case had made ineffective a bill that both houses of the
Congress had approved. Because it was
the President’s veto—not a lack of legislative support—that prevented the bill
from becoming law (either directly or by
the Congress voting to override the
President’s veto), those in the majority
could plausibly describe the President’s
action as a complete nullification of their
votes.
Chenoweth, 181 F.3d. at 116-17 (emphasis added).
The Court distinguished the claims before it from
Coleman on the ground that plaintiffs “do not allege
that the necessary majorities in Congress voted to
block the AHRI. Unlike the plaintiffs in Kennedy and
Coleman, therefore, they cannot claim their votes
were effectively nullified by the machinations of the
Executive.” Id. at 117.
In the second post-Raines case considered,

App. 36
Campbell v. Clinton, thirty-one Members of Congress
sued President Clinton, alleging that he violated the
War Powers Resolution and the War Powers Clause
of the Constitution by directing the participation of
U.S. forces in Yugoslavia. 203 F.3d 19, 19 (D.C. Cir.
2010). A month after President Clinton announced
that participation, Congress voted on four resolutions
related to the conflict: (1) a declaration of war was
defeated 427 to 2; (2) an “authorization” of the air
strikes was defeated 213 to 213; (3) a resolution that
would have required the President to end U.S. participation in the operation was defeated; and funding
for involvement in the operation was approved. Id. at
20. Plaintiffs claimed that they fit within the “Coleman exception to the Raines rule” by filing suit after
having “defeat[ed] the War Powers Resolution authorization by a tie vote.” Id. at 22. The Court found
neither of their claims to be analogous to the nullification that occurred in Coleman, which the Court
understood “to mean treating a vote that did not pass
as if it had, or vice versa.” Id. at 22. In Coleman,
“state officials endorsed a defeated ratification, treating it as approved, while the President here did not
claim to be acting pursuant to the defeated declaration of war or a statutory authorization, but instead
‘pursuant to [his] constitutional authority to conduct
U.S. foreign relations and as Commander-in- Chief
and Chief Executive.’” Id. at 22 (discussing Coleman
v. Miller, 307 U.S. 433 (1939) and quoting Letter to
Congressional Leaders Reporting on Airstrikes
Against Serbian Targets in the Federal Republic of
Yugoslavia (Serbia and Montenegro), 35 Weekly
Comp. Pres. Doc. 528 (Mar. 26, 1999)). The Court
reasoned that plaintiffs’ argument based on the War
Powers Resolution, “although cast in terms of the
nullification of a recent vote, essentially is that the
President violated the . . . War Powers Resolution”

App. 37
and their argument based on the War Powers Clause
“is that the President has acted illegally-in excess of
his authority-because he waged war in a constitutional sense without a congressional delegation.” Id.
Regarding the Raines Court’s use of the word “nullification,” the Court stated:
We think the key to understanding the
Court’s treatment of Coleman and its
use of the word nullification is its implicit recognition that a ratification vote on
a constitutional amendment is an unusual situation. It is not at all clear
whether once the amendment was
“deemed ratified,” see Raines, 521 U.S.
at 822, the Kansas Senate could have
done anything to reverse that position.
We think that must be what the Supreme Court implied when it said the
Raines plaintiffs could not allege that
the “[Line Item Veto Act] would nullify
their votes in the future,” and that, after
all, a majority of senators and congressmen could always repeal the Line
Item Veto Act. Id. at 824 (emphasis
added). The Coleman senators, by contrast, may well have been powerless to
rescind a ratification of a constitutional
amendment that they claimed had been
defeated. In other words, they had no
legislative remedy.
Id. at 22-23 (quoting Raines, 521 U.S. at 824) (footnote omitted). Applying Raines, the Court held that
the plaintiffs lacked standing under “the Coleman
exception” because they had “ample legislative power
to have stopped prosecution of the ‘war’” despite having lost the vote on the War Powers Resolution au-

App. 38
thorization. Id. at 23 (no citation for internal quotation in original). Therefore, despite the tie vote, the
Campbell plaintiffs had legislative remedies at their
disposal, unlike the situation in Coleman.
*
*
*
*
*
In sum, D.C. Circuit precedent teaches that individual Members of Congress do not have standing to
sue the Executive Branch when their institutional
injury is such that they can obtain their remedy in
Congress. In Campbell, the Court understood vote
nullification “to mean treating a vote that did not
pass as if it had, or vice versa.” Campbell, 203 F.3d
at 22. In Chenoweth, the Court suggested that notwithstanding Raines, a single Member of Congress
could have standing to sue based on a vote nullification claim when it was the President’s action, rather
than “a lack of legislative support,” that nullified the
Member’s vote. Chenoweth, 181 F.3d at 117. Such a
situation is therefore a third instance of a type of
vote nullification for which a legislator could have
standing.7
7

The closest constitutional analogy to plaintiffs’ claims here
is that in Kucinich v. Bush. 236 F. Supp. 2d 1 (D.D.C. 2002). In
that case, thirty-two Members of the House of Representatives
“challenged President Bush’s unilateral withdrawal from the
1972 Anti-Ballistic Missile Treaty . . . without the approval of
Congress,” contending that President Bush was required to obtain their consent before terminating a treaty. Id. at 1. Applying
Raines, Chenoweth, and Campbell, the Court held plaintiffs did
not have standing because their “claim of a ‘grievous institutional injury’ where they are ‘deprived of their constitutional
right . . . to participate in treaty termination’ was no different
from the institutional injuries alleged in Chenoweth, Campbell,
and Raines.” Id. at 9. The Court did not discuss whether the
plaintiffs’ votes had been nullified. In any event, the Court also
concluded that the plaintiffs’ raised a nonjusticiable political

App. 39
2. Plaintiffs Adequately Allege a Judicially Cognizable Injury
a. Injury-in-Fact
To establish that they have an injury-in-fact,
plaintiffs must allege that their injury is “personal,
particularized, concrete, and otherwise judicially cognizable.” Raines, 521 U.S. at 820. Regarding the requirement that the injury be “legally and judicially
cognizable,” “the plaintiff [must allege to] have suffered ‘an invasion of a legally protected interest
which is . . . concrete and particularized’ Lujan, 504
U.S. at 560, and that the dispute is ‘traditionally
thought to be capable of resolution through the judicial process.’” Id. at 819 (quoting Flast, 392 U.S. at
97).
b. Plaintiffs Adequately Allege an Institutional Injury
In the context of legislator standing, the Supreme
Court has recognized at least one type of institutional
injury for which legislators may have standing to sue:
complete vote nullification. Coleman, 307 U.S. at 438;
Raines, 521 U.S. at 821-23; Ariz. State Legislatue, 135
S. Ct. at 2667; Cummings v. Murphy, No. 17-2308,
slip op. at 18 (D.D.C. Aug. 14, 2018) (“[c]omplete vote
nullification is clearly a type of institutional injury
sufficient to support legislator standing”). Since an
institutional injury will “necessarily damage all
Members of Congress and both Houses of Congress
equally,” Raines, 521 U.S. at 821, it will not be a personal injury in the sense that the injury in Powell
question. Id. The President has not argued that the claims here
involve nonjusticiable political questions. Therefore, this persuasive authority is inapposite.

App. 40
was personal. If institutional injuries were incapable
of also being personal to individual members of the
institution, however, the Court in Raines would have
overruled Coleman. Id. at 819 (“We have consistently
stressed that a plaintiff’s complaint must establish
that he has a ‘personal stake’ in the alleged dispute,
and that the alleged injury suffered is particularized
as to him.”). Instead, the Supreme Court reaffirmed
Coleman in both Raines, id. at 821, and Arizona State
Legislature, 135 S. Ct. at 2665, necessarily holding
that the institutional injury alleged–vote nullification–was sufficiently personal to each of the individual plaintiffs to satisfy the standing requirement under Article III.
The Clause requires the President to ask Congress before accepting a prohibited foreign emolument. Accepting the allegations in the Complaint as
true, which the Court must at this juncture, the President is accepting prohibited foreign emoluments
without asking and without receiving a favorable reply from Congress. The “nature and source of the
claim,” Warth, 422 U.S. at 500, is an unusual8 constitutional provision which unambiguously prohibits the
President from accepting any emolument from “any
King, Prince or foreign State” unless Congress chooses to permit an exception. U.S. Const. art. I, § 9, cl. 8;
17 Op. O.L.C. 114, 121 (1993). The specific facts alleged are that the President has accepted, and intends to continue accepting, prohibited foreign emol8

The only similar provision is the Article II requirement that
the President obtain the advice and consent of Congress prior to
taking covered executive branch action. U.S. Const. art. II, § 2,
cl. 2.

App. 41
uments without seeking congressional consent. Am.
Compl., ECF No. 14 ¶¶ 4, 37, 39, 40, 77, 78, 79. Furthermore, the President has not provided any information to Congress about any foreign emoluments he
has received. Id. ¶¶ 41, 80. The President is depriving
plaintiffs of the opportunity to give or withhold their
consent, thereby injuring them “in their roles as
members of Congress.” Id. ¶ 5. Specifically, the President has neither sought plaintiffs’ consent prior to
accepting prohibited foreign emoluments, nor provided any information to Congress about them, thereby
preventing plaintiffs from “exercis[ing] their constitutional prerogative to authorize or reject the specific
emoluments he is accepting.” Id. ¶ 41. Plaintiffs adequately allege that the President has completely nullified their votes in the past because he has accepted
prohibited foreign emoluments as though Congress
had provided its consent. And he will completely nullify their votes in the future for the same reason, as
plaintiffs allege that he intends to continue this practice. The President’s alleged acceptance of prohibited
foreign emoluments as though Congress provided
consent is indistinguishable from “treating a vote
that did not pass as if it had, or vice versa.” Campbell, 203 F.3d at 22. And, as soon as the President accepts a prohibited foreign emolument without obtaining congressional consent, his acceptance is irreversible. Id. at 22-23. Accordingly, plaintiffs adequately
allege that the President has completely nullified
their votes.
Although plaintiffs do not sue on behalf of Congress, but rather in their individual official capacities
as Members of Congress, their ability to bring this
suit is not foreclosed by Supreme Court and D.C. Circuit precedent. The Raines Court did not hold that it
would be necessary for an institutional claim to be

App. 42
brought by or on behalf of the institution. Raines, 521
U.S. at 829. Rather, the fact that the case had not
been authorized by the institution was a relevant
consideration, but not dispositive, in determining
that the Raines plaintiffs lacked standing. Id. Moreover, the claim in Coleman was not brought on behalf
of the state senate as an institutional plaintiff, but
rather by a bloc of individual members who had voted
not to ratify the constitutional amendment. Coleman,
307 U.S. at 438. The Supreme Court distinguished
Raines from Arizona State Legislature because the
latter was brought by the legislature as an institution, Ariz. State Legislature, 135 S. Ct. at 2664, but in
finding the legislature to have standing, the Supreme
Court did not hold that an institutional claim may be
brought only by the institution. See generally id. Furthermore, notwithstanding Raines, a single Member
of Congress could have standing to sue based on a
vote nullification claim when it was the President’s
action, rather than “a lack of legislative support,”
that nullified the Member’s vote. Chenoweth, 181
F.3d at 117.
i. The President Misstates the Injury
The President acknowledges that “when a legislative vote is deemed defeated by executive action,” the
legislator has standing to sue unless there is a legislative remedy. Mot. to Dismiss, ECF No. 15-1 at 17.
Although he disputes that plaintiffs’ votes have been
“defeated by executive action,” his argument relies on
a misstatement of the alleged injury. The President
contends that plaintiffs cannot plausibly allege that
he has prevented votes from being taken on the

App. 43
emoluments bills pending before Congress, 9 or that
he has prevented Congress from otherwise voting on
the emoluments issue. Id. at 24, 26. He also emphasizes that Congress may still choose to vote on the
pending bills or on bills introduced in the future. Id.
at 26. However, the votes contemplated by the President are not votes to consent, or not, in response to
the President’s request for consent prior to his acceptance of a prohibited foreign emolument. Rather,
these are votes on the issue of emoluments. Injury to
their power to legislate on the issue of emoluments is not the injury plaintiffs allege. See generally
Am. Compl., ECF No. 14. To be clear, plaintiffs’ alleged injury is caused by the President’s alleged refusal to give them the opportunity to exercise their
constitutional right to vote on whether to consent prior to his acceptance of prohibited foreign emoluments. It is irrelevant that Congress can express its
consent through legislation on the issue of emoluments or that it has done so in the past on limited occasions.10 In the absence of such legislation, the President deprives plaintiffs of the opportunity to vote
every time he accepts an emolument from “any King,
Prince, or foreign State” without the consent of Congress. U.S. Const. art. I, § 9, cl. 8.11
9

See S. Con. Res. 8, 115th Cong. (2017) (among other things,
declaring the President’s dealings through his companies with
foreign governments to be potential violations of the emoluments clause); H.R.J. Res. 16, 115th Cong. (2017) (denying congressional consent for the President to accept any foreign emolument during his Presidency).
10

See Foreign Gifts and Decorations Act of 1966, 5 U.S.C. §
7342.
11

Similarly, the President argues that unlike the situation in
Coleman, there is nothing that is “unusual” or “irreversible”

App. 44
ii. The President Reads the Precedent Too Narrowly
According to the President, a Court may conclude
that plaintiffs have standing for a vote nullification
claim only when they can “allege that ‘the necessary
majorities in the Congress voted’ to withhold consent
to the President’s alleged acceptance of prohibited
foreign emoluments.” Mot. to Dismiss, ECF No. 15-1
at 25 (quoting Chenoweth, 181 F.3d at 117). As an initial matter, again the President has misstated the
injury. Moreover, the Court disagrees with this narrow reading of Coleman. Although the Raines Court
narrowed the Coleman holding, the Court neither
held nor implied that the only type of vote nullification claim for which a legislator would have standing
would be “legislators whose votes would have been
sufficient to defeat (or enact) a specific legislative Act
. . . if that legislative action goes into effect (or does
not go into effect), on the ground that their votes have
been completely nullified.” Raines, 521 U.S. at 823.
Indeed, following Raines, the Supreme Court recognized that the Arizona State Legislature as an institutional plaintiff had standing to bring a vote nullification claim. See Ariz. State Legislature, 135 S. Ct. at
2667. The legislature there did not allege that it had
here because Congress may choose to vote on “the emoluments
issue” in the future. Mot. to Dismiss, ECF No. 15-1 at 26; Reply,
ECF No. 28 at 14. Again, the President’s argument relies on the
same misstatement of the alleged injury. Moreover, each time
the President accepts prohibited foreign emoluments without
the consent of Congress, that acceptance without consent is irreversible. Finally, although not “unusual” in the sense that
word was used in Coleman, the President’s failure to comply
with the Clause is highly unusual given that prior Presidents
have ensured that their actions were consistent with the Clause.
See supra Section IV.B.

App. 45
the “necessary majorities” to take action; rather the
claimed injury was that the ballot initiative deprived
the plaintiff of a legislative “prerogative.” Id. at 2663.
The D.C. Circuit has emphasized that the Coleman
exception is a “narrow rule,” Chenoweth, 181 F.3d at
116; see Campbell, 203 F.3d at 22-23, and has interpreted the Coleman exception “to mean treating a
vote that did not pass as if it had, or vice versa,”
Campbell, 203 F.3d at 22. As the Court has explained, supra Section IV.C.2.b, here the President
has allegedly accepted prohibited foreign emoluments
as though Congress has provided its consent, which is
indistinguishable from “treating a vote that did not
pass as if it had, or vice versa.”12 Id.
The President insists that upholding standing
here would require a “drastic extension of Coleman,”
which the Supreme Court in Raines rejected. Mot. to
Dismiss, ECF No. 15-1 at 25. The Court disagrees.
Raines would have required a drastic extension of
Coleman because the nature of the vote nullification
in Coleman was different from the “abstract dilution
of legislative power” alleged in Raines. Raines, 521
U.S. at 826. And critically, the Raines plaintiffs had
adequate legislative remedies at their disposal. Id. at
824. Here, by contrast, the President’s complete nullification of plaintiffs’ votes is entirely different from
the “abstract dilution of legislative power” alleged in

12

For the same reason, the Court rejects the President’s argument that plaintiffs’ reliance on the vote nullification theory
articulated in Coleman is misplaced to the extent they claim
their injury encompasses being deprived of the option of not voting because none of the precedent recognizes such an injury. Reply, ECF No. 28 at 17.

App. 46
Raines. Id. at 826. And as will be explained in detail,
plaintiffs have no adequate legislative remedies. See
infra Section IV.C.4.
c. Plaintiffs’ Alleged Injury is Personal, Particularized, and Concrete
Plaintiffs allege that the President has accepted,
and intends to continue accepting, prohibited foreign
emoluments without seeking congressional consent,
thereby depriving them of the opportunity to vote on
whether to consent to his acceptance of emoluments
before he accepts them. Am. Compl., ECF No. 14 ¶¶
3-4. Plaintiffs’ injury is to a “legally protected interest” because the Clause prohibits the President from
accepting “any” emolument from “any King, Prince,
or foreign State” without the consent of Congress. U.S
Const. art. I, § 9, cl. 8. Consent is obtained through
the aggregate of the specific votes that each individual Member of Congress is entitled to take. Id. art. I, §
1; art. I, § 3, cl. 1; art. I, § 5, cl. 3. Although this injury is dispersed among all Members of Congress, as
will necessarily be the case when an institutional injury is alleged, this does not render the injury less
concrete or particularized. See Raines, 521 U.S. at
821 (stating an institutional injury will “necessarily
damage all Members of Congress and both Houses of
Congress equally”); Ariz. State Legislature, 135 S. Ct.
at 2664 (Plaintiff “is an institutional plaintiff asserting an institutional injury”). Rather, each time the
President allegedly accepts a foreign emolument
without seeking congressional consent, plaintiffs suffer a concrete and particularized injury—the deprivation of the right to vote on whether to consent to the
President’s acceptance of the prohibited foreign
emolument—before he accepts it. And although the
injury is an institutional one, the injury is personal to
legislators entitled to cast the vote that was nullified.

App. 47
See Raines, 521 U.S. at 823 (narrowing but not overruling the holding in Coleman); Ariz. State Legislature, 135 S. Ct. at 2664-65 (holding that the legislature has standing to sue); supra Section IV.C.2.b. Accordingly, plaintiffs adequately allege that they “have
suffered ‘an invasion of a legally protected interest
which is . . . [personal,] concrete and particularized.’”
Raines, 521 U.S. at 819 (quoting Lujan, 504 U.S. at
560).
The President argues that the injury alleged here
is insufficiently concrete to give the plaintiffs a “personal stake in the dispute” because the injury “damages all Members of Congress and both Houses of
Congress equally.” Reply, ECF No. 28 at 10 (quoting
Raines, 521 U.S. at 821, 830). Furthermore, according
to the President, the alleged injury cannot support
Article III standing because it is felt equally by all
Members of Congress “solely because they are Members of Congress,” as distinct from the personal injury
alleged in Powell. Reply, ECF No. 28 at 11 (quoting
Raines, 521 U.S. at 821). The Court disagrees. The
Raines Court recognized two types of injuries that
could support legislator standing: (1) a personal injury such as that typified in Powell; and (2) an institutional injury—vote nullification—such as that in
Coleman. Raines, 521 U.S. at 829-30. An institutional
injury will “necessarily damage all Members of Congress and both Houses of Congress equally” and will
be felt equally by Members of Congress “solely because they are Members of Congress.” Id. at 821. And
as explained, supra at 30-31, by reaffirming Coleman
in Raines and Arizona State Legislature, the Supreme
Court necessarily held that the institutional injury
alleged was sufficiently personal to each of the plaintiffs to satisfy the standing requirement under Article
III.

App. 48
i. Plaintiffs’ Alleged Injury is Distinguishable from the Injuries Alleged in the Precedent
The President argues that plaintiffs’ claims are
squarely foreclosed by Raines. The Court disagrees.
As an initial matter, the President reads Raines to
establish “a foundational principle that the denial of
institutional legislative prerogative is not a judicially
cognizable injury.” Mot. to Dismiss, ECF No. 15-1 at
16. This broad principle, however, is not supported by
Raines. Raines establishes that legislators may have
standing based on the nullification of their votes,
which is an institutional, as opposed to a personal,
injury. Raines, 521 U.S. at 821-23. To establish the
broad principle asserted by the President, the Raines
Court would have needed to overrule Coleman. Not
only did the Raines Court not overrule Coleman, but
the Court also relied on Coleman to uphold standing
in Arizona State Legislature, in which the alleged injury was deprivation of a legislative prerogative. Ariz.
State Legislature, 135 S. Ct. at 2663.
The President argues that the injury alleged here
amounts only to a “dilution of institutional legislative
power.” Mot. to Dismiss, ECF No. 15-1 at 22 (quoting
Raines, 521 U.S. at 820). Moreover, according to the
President, there is little difference between the claim
in Raines and the claim here because the members in
Raines argued that the challenged Act “deprived
them of ‘their constitutional role in the repeal of legislation’” which “does not differ materially from
Plaintiffs’ claim that they have been denied their constitutional role in deciding whether to consent to the
President’s acceptance of allegedly prohibited foreign
emoluments,” Reply, ECF No. 28 at 10-11 (quoting
Raines, 521 U.S. at 816). In so arguing, the President
insists that plaintiffs’ claimed injury is indistinguish-

App. 49
able from the claimed injury in Chenoweth. Mot. to
Dismiss, ECF No. 15-1 at 23-24. The Court disagrees.
The injury alleged here is distinguishable from those
alleged in Raines and Chenoweth. In Raines, plaintiffs sued after being on the losing side of the vote
that enacted the Line Item Veto Act, alleging that
their injury was the diminution of legislative power
caused by the Act. Raines, 521 U.S. at 814. In
Chenoweth, plaintiffs sued after their bill seeking to
end a program created by the President by Executive
Order failed to be brought to a vote, alleging that
their injury was that Members of Congress had been
deprived of their right to vote on the Presidentiallycreated program. Chenoweth, 181 F.3d at 112. In
each case, plaintiffs either lost the vote in Congress
or did not have the political influence to bring their
bill to a vote, and then sought relief in the courts.
Here, by contrast, plaintiffs’ alleged injury is caused
by the President’s alleged acceptance of prohibited
foreign emoluments before seeking and obtaining
congressional consent, not by any action taken or not
taken by their congressional colleagues. See Chenoweth, 181 F.3d at 117 (“it was the President’s veto—
not a lack of legislative support—that prevented the
bill from becoming a law”); infra Section IV.C.3.a.
The President’s repeated misstatement of the injury
does not change the nature of plaintiffs’ alleged injury. Finally, the President’s alleged acceptance of a
prohibited foreign emolument before obtaining congressional consent does not “dilute” plaintiffs’ legislative power because they do not allege injury to their
ability to legislate on the issue of emoluments.
3. Separation-of-Powers Concerns
a. Plaintiffs Lack Adequate Legislative Remedies
The Court does agree with the President that,

App. 50
“when legislators possess ‘political tools with which to
remedy their purported injury,’ they may not seek the
aid of the Judiciary.” Mot. to Dismiss, ECF No. 15-1
at 26 (quoting Campbell, 203 F.3d at 23-24). But
here, plaintiffs lack such tools.
In addition to Congress bringing the bills currently pending to a vote, see supra Section IV.C.2.b.i,
the President suggests that the following types of legislation would provide plaintiffs with a legislative
remedy: (1) voting on whether what plaintiffs allege
“constitute[s] violations of the Foreign Emoluments
Clause by the President and whether Congress
should provide its consent,” Mot. to Dismiss, ECF No.
15-1 at 2; (2) “vot[ing] on a private bill13 consenting to
the receipt of what it construed to be emoluments received from foreign governments or a joint resolution
expressing its disagreement with such receipt,” id. at
24; and/or (3) “vot[ing] on a joint resolution14 that
provides what Congress perceives to be the proper
definition of an emolument and prohibits any and all
emoluments, including ones unknown to Congress,”
13

A private bill is legislation that addresses a matter of
narrow interest, which after being passed in identical form by
the House and Senate, is submitted to the President for
signature. United States Senate, Bills and Resolutions,
Legislation, Laws and Acts, available at https://www.senate.gov/
pagelayout/legislative/d_three_sections_with_teasers/bills.htm.
14

A joint resolution, with one exception, is legislation that
requires the approval of both the House and Senate and is
submitted to the President for signature. The exception is when
the joint resolution proposes a constitutional amendment.
United States Senate, Bills and Resolutions, Legislation, Laws
and Acts, available at https://www.senate.gov/pagelayout/
legislative/d_three_sections_with_teasers/bills.htm.

App. 51
Reply, ECF No. 28 at 18. According to this argument,
plaintiffs have ample legislative remedies at their
disposal; they just don’t have the votes.
The President’s purported legislative remedies
are clearly inadequate within the meaning of Raines.
Raines, 521 U.S. at 829 (legislative remedy must be
an “adequate” remedy). In Raines, Chenoweth, and
Campbell, adequate legislative remedies were available to redress the plaintiffs’ grievances. In Raines, “a
majority of Senators and Congressmen c[ould] pass or
reject appropriations bills; the Act has no effect on
this process. Moreover, a majority of Senators and
Congressmen c[ould] vote to repeal the Act, or to exempt a given appropriations bill (or a given provision
in an appropriations bill) from the Act; again, the Act
has no effect on this process.” Id. at 824. In Chenoweth, “[i]t [was] uncontested that the Congress could
terminate the AHRI were a sufficient number in each
House so inclined.” Chenoweth, 181 F.3d at 116. And
in Campbell, “Congress certainly could have passed a
law forbidding the use of U.S. forces in the Yugoslav
campaign.” Campbell, 203 F.3d at 23.15
Here, by contrast, legislation on the emoluments
issue does not provide an adequate remedy. First, in
asking this Court to accept the proposition that legislation on the emoluments issue would be an adequate
remedy, the President asks this Court to ignore this
15

The President disputes that the precedent requires “political remedies [to] put the plaintiff members back in the same
position as if the Executive had not caused the alleged injury in
the first place.” Reply, ECF No. 28 at 17. This is beside the point
because in each case, there was an adequate legislative remedy,
whereas here there is none.

App. 52
constitutional Clause. The Court may not do so. See
Marbury, 1 Cranch at 174 (“It cannot be presumed
that any clause in the constitution is intended to be
without effect . . . .”). The Clause is unambiguous: acceptance is prohibited without “Consent.” U.S Const.
art. I, § 9, cl. 8. The Clause therefore places the burden on the President to convince a majority of Members of Congress to consent. The legislation suggested
by the President flips this burden, placing the burden
on Members of Congress to convince a majority of
their colleagues to enact the suggested legislation.
This is not what the Clause requires.
Second, the President does not explain why such
legislation, assuming he signed it, would prevent him
from accepting prohibited foreign emoluments. His
failure to explain is especially problematic given that
the Constitution itself has not prevented him from
allegedly accepting them. Third, the President does
not explain how the proposed legislation would be adequate in view of the allegation that the President
has not provided any information to Congress about
the prohibited foreign emoluments he has received,
and that he does not intend to change this practice.
Am. Compl., ECF No. 14 ¶¶ 40, 41. Legislating after
Congress happens to learn about his acceptance of a
prohibited foreign emolument through news reports
is clearly an inadequate remedy. Fourth, legislation
disagreeing with the President’s acceptance of prohibited foreign emoluments does not provide a remedy
for him already having allegedly accepted them without seeking and obtaining consent. Finally, legislation would neither prevent the President from accepting future prohibited foreign emoluments, nor force
him to return those he has already accepted.
Furthermore, and in contrast to the situation in
Chenoweth and Campbell, Congress’ appropriations

App. 53
power cannot be used to obtain a legislative remedy,
such as refusing to appropriate funds for an Executive Branch program or for participation in a war, because there are no federal appropriations associated
with the President’s receipt of prohibited foreign
emoluments. This is another aspect of the Clause
that makes it unusual. The President suggests that
among plaintiffs’ legislative remedies is the use of
Congress’ appropriations power to retaliate against
him for his alleged acceptance of prohibited foreign
emoluments by “tak[ing] action on matters not directly related to emoluments.” Reply, ECF No. 28 at 18.
Courts have treated Congress’ use of its appropriations power as a legislative remedy in situations in
which failing to provide funding could actually resolve the dispute. See, e.g., Campbell, 203 F.3d at 23
(“Congress always retains appropriations authority
and could have cut off funds for the American role in
the conflict.”). Here, however, Congress lacks a
“broad range of legislative authority it can use to
stop” the President from failing to seek consent before
accepting prohibited foreign emoluments. Campbell,
203 F.3d at 24 (noting that where “Congress has a
broad range of legislative authority it can use to stop
a President’s” action, Congress cannot mount a challenge to that action pursuant to Raines).
Finally, the availability of the extreme measure
of impeachment, see Campbell, 203 F.3d at 23 (noting
that “there always remains the possibility of impeachment should a President act in disregard of
Congress’ authority”), to enforce the President’s compliance with the Clause is not an adequate remedy
within the meaning of Raines. Cf. Nat’l Treasury
Emp. Union v. Nixon, 492 F.2d 587, 615 (D.C. Cir.
1974) (“the Constitution should not be construed so
as to paint this nation into a corner which leaves

App. 54
available only the use of the impeachment process to
enforce the performance of a perfunctory duty by the
President”).
b. Capable of Resolution Through the
Judicial Process
Raines also instructs the Court to consider
whether “the dispute is ‘traditionally thought to be
capable of resolution through the judicial process.’”
Raines, 521 U.S. at 819 (quoting Flast, 392 U.S. at
97). The President argues that it is not because “every16 confrontation between one or both Houses of
Congress and the Executive Branch has been resolved through the political process rather than
through suits brought by legislators.” Reply, ECF No.
28 at 10 (citing Raines, 521 U.S. at 826). Plaintiffs
respond that the Raines Court discussed the novelty
of litigation between the legislative and executive
branches, noting that it “appear[ed]” to argue against
the plaintiffs, but did not elaborate further. Pls.’
Opp’n, ECF No. 17 at 20.
The Raines Court’s examples of analogous confrontations between Congress and the Executive

16

Again, the President has overstated the proposition. What
the Raines Court said was “in analogous confrontations between
one or both Houses of Congress and the Executive Branch, no
suit was brought on the basis of claimed injury to official authority or power.” Raines, 521 U.S. at 826 (emphasis added). In Kennedy v. Sampson, the D.C. Circuit held that Senator Kennedy
had standing to bring the suit and the Court issued a declaratory judgment ruling that the President’s failure to take action on
the bill at issue did not result in a pocket veto, but instead the
bill became law. 511 F.2d at 442. Such suits are therefore not
nonexistent.

App. 55
Branch are distinguishable from the situation here.
In Raines, the Court discussed at length the fact that
no President sued to challenge the constitutionality of
the Tenure of Office Act. Raines, 521 U.S. at 826.
That Act, which required the consent of the Senate
for the President to remove an official whose appointment to the Executive Branch required Senate
confirmation, was passed in 1867 and repealed in
1887. Id. The Raines Court stated that if federal
courts had become involved, “they would have been
improperly and unnecessarily plunged into the bitter
political battle being waged between the President
and Congress” over the Act. Id. at 827. Here, there is
no “bitter political battle” between the President and
Congress over the constitutionality of an Act passed,
and ultimately repealed, by Congress that impinged
on the President’s appointments authority. Id.
Two of the other three examples cited by the
Raines Court involved constitutional challenges to
legislation that impermissibly altered the power of
the Legislative or Executive Branch, but where the
claim was not brought by one branch against the other. See INS v. Chadha, 462 U.S. 919, 959
(1983)(holding the one House congressional veto provision in Section 244(1)(2) of the Immigration and
Nationality Act to be unconstitutional); Buckley v.
Valeo, 424 U.S. 1, 140 (1976) (holding the provisions
of the then-existing Federal Election Campaign Act of
1971 that “vest[ed] in the [Federal Election] Commission primary responsibility for conducting civil litigation in the courts of the United States for vindicating
public rights, violate[d] Art. II, § 2, cl., 2, of the Constitution.”). These cases are distinguishable because
here, plaintiffs do not allege that their injury has
been caused by a similar type of legislation passed by
Congress and signed into law by the President. Fur-

App. 56
thermore, there is no legislative remedy. In the final
example, the Supreme Court held that a bill that was
presented to the President less than ten days before a
congressional session was adjourned did not become
law when the President “neither signed the bill nor
returned it to the Senate” in a challenge brought by
certain Native American Tribes. Okanogan, Methow,
San Poelis (or San Poil), Nespelem, Colville, and Lake
Indian Tribes or Bands of the State of Washington v.
United States, 279 U.S. 655, 673, 691-92 (1929). This
case is distinguishable for the same reasons—at issue
there was the legal status of a bill that had been
passed by both Houses of Congress and presented to
the President less than ten days before the adjournment of the congressional session. The decision to do
so had been made by Congress and could be remedied
by Congress.
Similarly, this is not a situation in which plaintiffs disagree with the manner in which the President
is administering or enforcing the law. See United
States v. Windsor, 570 U.S. 744, 789 (2013) (Scalia, J.
dissenting) (Ours is not a “system in which Congress
and the Executive can pop immediately into court, in
their institutional capacity, whenever the President .
. . implements a law in a manner that is not to Congress’ liking.”). Neither is it the situation in Raines
where the Court rejected the plaintiffs’ ability to sue
the President over the exercise of a statutory provision they believed to be unconstitutional. Raines, 521
U.S. at 830. Furthermore, although historical practice militates against Members of Congress turning to
the Courts to resolve a dispute for which there is a
legislative resolution, as explained supra Section
IV.C.3.a, there is no adequate legislative remedy
here.
This case does not raise the concern that the

App. 57
Court, in exercising jurisdiction over plaintiffs’
claims, would be engaging in some kind of “amorphous general supervision of the operations of government.” Id. at 826 (quoting Richardson, 418 U.S. at
194 (Powell, J., concurring)). Rather, this dispute
raises concrete legal questions that are within the
purview of the federal courts to adjudicate: (1) what
is an emolument; (2) what does it mean to accept an
emolument; and (3) whether the President has violated the Foreign Emoluments Clause. The President
contends that “Congress is far better equipped than
the courts to assess whether particular arrangements
violate the Foreign Emoluments Clause, and if so,
how best to address the violation.” Reply, ECF No. 28
at 18. While Congress clearly has the power to legislate on the issue of emoluments, “it is ‘the duty of the
judicial department’—in a separation-of-powers case
as in any other—‘to say what the law is.’” N.L.R.B. v.
Canning, 134 S. Ct. 2550, 2560 (2014) (quoting Marbury, 1 Cranch at 177). Therefore, it is the role of the
Judiciary to “say what the law is” regarding the
meaning of the Foreign Emoluments Clause and the
President’s compliance with it. Cf. United States v.
Nixon, 418 U.S. 683, 705 (1974) (“We therefore reaffirm that it is the province and duty of this Court ‘to
say what the law is’ with respect to the claim of privilege asserted in this case.”) (quoting Marbury, 1
Cranch at 177). The President does not dispute the
role of the courts in interpreting the Constitution, but
rejects the proposition that judicial review is appropriate here because “Congress continues to possess
effective tools that would serve as checks on the Executive.” Def.’s Suppl. Br. in Support of his Mot. to
Dismiss and in Response to the Brs. of Amici Curiae
(“Def.’s Suppl. Br.”), ECF No. 51 at 26-27. Nevertheless, as explained supra Section IV.C.3.a, there are no
adequate legislative remedies here.

App. 58
Furthermore, unlike in Raines, the dispute here
is neither an “interbranch dispute about calibrating
the legislative and executive powers [nor] is it an intrabranch dispute between segments of Congress itself,” either of which would counsel against judicial
involvement based on separation-of-powers principles. Raines, 521 U.S. at 833 (Souter, J., concurring).
Rather, this dispute is about the President’s alleged
refusal to seek consent prior to his alleged acceptance
of prohibited foreign emoluments that he receives as
a result of his personal financial interests. The President has strenuously attempted to frame the dispute
as “an intrabranch dispute between segments of Congress itself,” see Raines, 521 U.S. at 833 (Souter, J.,
concurring), but as the Court has thoroughly explained, supra Section IV.3.A, this characterization is
incorrect.
Accordingly, although this case implicates separation-of- powers concerns, finding standing here
“keep[s] the Judiciary’s power within its proper constitutional sphere.” Raines, 521 U.S. at 820. As the
Court has explained, plaintiffs’ claim of standing is
not based on a “loss of political power,” see id. at 821,
as was the case in Raines, because the injury alleged
is not an injury to their power to legislate on the issue of emoluments. And since plaintiffs have no adequate legislative remedy, they appropriately seek relief in federal court. See Valley Forge Christian Coll.,
454 U.S. at 473-74 (“exercis[ing] . . . judicial power
has been recognized as a tool of last resort”).
4. The Ability of Another Plaintiff to
Bring This Case
Raines instructs the Court to consider whether
another plaintiff could bring the case. Raines, 521
U.S. at 829 (noting that the Court’s holding did not
foreclose a constitutional challenge by someone with

App. 59
standing). At oral argument, the Court asked counsel
for the President a hypothetical question: Whether, if
this case had been brought by Congress as an institutional plaintiff, counsel would agree that it would
have standing. Hr’g Tr., ECF No. 54 at 71:2-6. The
government refused to concede that it would. Id. at
71:7-25, 77:5-20. At the same time, counsel stated,
“[j]ust because these plaintiffs don’t have standing, it
doesn’t mean another plaintiff in a proper case might
not have standing.” Id. at 76:2-3. When pressed by
the Court about who that plaintiff would be, counsel
conceded: “I have a hard time thinking through which
plaintiff would be a proper plaintiff to enforce the
Emoluments Clause.” Id. at 76:8-10. That no plaintiff
would have standing to challenge the President’s alleged violation of the Clause is certainly consistent
with the President’s argument that “when an official
fails to first seek congressional consent before accepting emoluments prohibited by the Foreign Emoluments Clause, it only means that the official has violated the Clause, not that each Member of Congress
automatically acquires a judicially cognizable personal stake to challenge the violation.” Def.’s Suppl. Br.,
ECF No. 51 at 11. The faulty premise underlying the
President’s argument, however, is that there is a legislative remedy for violating the Clause.
Hr’g
Tr., ECF No. 54 at 79:12- 80:18.
The Court is aware of one existing17 challenge to
the President’s receipt of prohibited foreign emolu17

Another challenge was dismissed for lack of standing. See
Citizens for Responsibility and Ethics in Washington v. Trump,
276 F. Supp. 3d 174 (S.D.N.Y. 2017), appeal docketed, No. 18474 (2d Cir. 2018).

App. 60
ments. However, that challenge seeks to remedy entirely different injuries: The District of Columbia alleges injuries to its quasi-sovereign interest and its
proprietary interest, and the State of Maryland alleges injuries to its sovereign interests, quasi-sovereign
interest and its proprietary interest. See District of
Columbia v. Trump, 291 F. Supp. 3d 725, 735 (D. Md.
2018).
Accordingly, if these plaintiffs do not have standing to bring their claims to address their alleged injury, it is unlikely that another plaintiff would, rendering the Clause unenforceable against the President
except via impeachment. As explained, supra at 45,
impeachment is an inadequate remedy within the
meaning of Raines.
5. Traceability and Redressability
“A plaintiff must allege a personal injury fairly
traceable to the defendant’s allegedly unlawful conduct and likely to be redressed by the requested relief.” Allen, 468 U.S. at 751. The President contends
that “[p]laintiffs’ alleged injury is not traceable to the
President: The President has not prevented Congress
from voting on whether he may accept emoluments,
and Plaintiffs remain free to convince their congressional colleagues to redress their alleged injury.” Reply, ECF No. 28 at 8. The Court disagrees. Again, the
President has misstated the alleged injury. Moreover,
this matter is before the Court on a motion to dismiss
and the Court must take as true the facts that are alleged in the complaint. Plaintiffs’ well-pleaded complaint alleges that the President has accepted prohibited foreign emoluments without first seeking the
consent of Congress. Am. Compl., ECF No. 14 ¶¶ 4-5.
The alleged injury is therefore directly traceable to
the President’s alleged failure to seek Congressional
consent.

App. 61
Plaintiffs seek declaratory relief in the form of a
declaratory judgment stating that the President is
violating the Clause when he accepts emoluments
from foreign states without first seeking the consent
of Congress, and injunctive relief in the form of an
order from the Court enjoining the President from accepting “any present, Emolument, Office, or Title, of
any kind whatever” from a foreign state without obtaining “the Consent of Congress.” Id., ECF No. 14 ¶¶
84-92. The President contends that the injunctive relief sought by plaintiffs is unconstitutional, Mot. to
Dismiss, ECF No. 15-1 at 56-58; Reply, ECF No. 28 at
31- 34, but does not contest that injunctive relief,
were it available, would redress plaintiffs’ injury, see
generally Mot. to Dismiss, ECF No. 15-1; Reply, ECF
No. 28. Whether injunctive relief is available here is a
merits determination that the Court need not reach
at this juncture, and the Court cannot assume, for
the purposes of determining whether plaintiffs have
standing, that injunctive relief would be unconstitutional. Because the President’s alleged violation of
the Clause could be redressed by the declaratory and
injunctive relief sought, plaintiffs have satisfied the
redressability component of the standing inquiry.
V. Conclusion
Accordingly, the Court finds that plaintiffs have
standing to sue the President for allegedly violating
the Foreign Emoluments Clause. The Court therefore
DENIES IN PART the motion to dismiss and DEFERS ruling on the remaining arguments in the motion to dismiss. An appropriate Order accompanies
this Memorandum Opinion.
SO ORDERED.

App. 62
Signed:

Emmet G. Sullivan
United States District Judge
September 28,

2018

App. 63
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
Civil Action No. 17-1154 (EGS)
SENATOR RICHARD BLUMENTHAL, ET AL.,
Plaintiffs,
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES,
Defendant.
[Filed April 30, 2019]
ORDER
For the reasons stated in the accompanying
Memorandum Opinion, the Court finds that: (1)
plaintiffs have stated a claim against the President
for allegedly violating the Foreign Emoluments
Clause; (2) plaintiffs have a cause of action to seek
injunctive relief against the President; and (3) the injunctive relief sought is constitutional. It is hereby
ORDERED that the motion to dismiss is DENIED IN PART as to the portions of the motion to
dismiss that were deferred in the Court’s September
28, 2018 Order.
SO ORDERED.
Signed:

Emmet G. Sullivan
United States District Judge
April 30, 2019

App. 64
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
Civil Action No. 17-1154 (EGS)
SENATOR RICHARD BLUMENTHAL, ET AL.,
Plaintiffs,
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES,
Defendant.
[Decided April 30, 2019]
MEMORANDUM OPINION
I. Introduction
In its previous Opinion, the Court held that
plaintiffs, approximately 201 Members of the 535
Members of the United States Senate and House of
Representatives, had standing to sue defendant Donald J. Trump in his official capacity as President of
the United States (“the President”) for alleged violations of the Foreign Emoluments Clause (“the
Clause”). See Blumenthal v. Trump, 335 F. Supp. 3d
45, 72 (D.D.C. 2018) (“Blumenthal I”). The President
has moved to dismiss the Amended Complaint for
failure to state a claim because, inter alia, he contends that “Emolument” should be narrowly construed to mean “profit arising from an official’s services rendered pursuant to an office or employ.” Def.’s
Mot. to Dismiss (“Mot. to Dismiss”), ECF No. 15-1 at

App. 65
38.1 The President’s definition, however, disregards
the ordinary meaning of the term as set forth in the
vast majority of Founding-era dictionaries; is inconsistent with the text, structure, historical interpretation, adoption, and purpose of the Clause; and is contrary to Executive Branch practice over the course of
many years.
Pursuant to the Clause, certain federal officials,
including the President, shall not “accept” an “Emolument” from “any King, Prince, or foreign State”
without “the Consent of the Congress.” U.S Const.
art. I, § 9, cl. 8. In Count I, plaintiffs seek declaratory
relief pursuant to 28 U.S.C. § 2201 in the form of a
declaratory judgment stating that the President is
violating the Clause when he accepts Emoluments
from foreign states without first seeking the consent
of Congress. Am. Compl., ECF No. 14 ¶¶ 85-86. In
Count II, plaintiffs seek injunctive relief pursuant to
the Court’s inherent authority to grant equitable relief and pursuant to 28 U.S.C. § 1331 in the form of a
Court order enjoining the President from accepting
“any present, Emolument, Office, or Title, of any kind
whatever” from a foreign state without obtaining “the
Consent of the Congress.” Id. ¶ 92.
In holding that plaintiffs had standing to sue the
President in Blumenthal I, the Court deferred ruling
on the remaining arguments in the President’s motion to dismiss: (1) failure to state a claim upon which
relief can be granted; (2) lack of a cause of action to

1

When citing electronic filings throughout this Memorandum
Opinion, the Court cites to the ECF header page number, not
the original page number of the filed document.

App. 66
seek the relief requested; and (3) the injunctive relief
sought is unconstitutional. Mot. to Dismiss, ECF No.
15-1 at 17-18.
Upon careful consideration of the President’s motion to dismiss, the opposition and reply thereto, the
relevant arguments of amici,2 and for the reasons explained below, the Court finds that: (1) plaintiffs have
stated a claim against the President for allegedly violating the Foreign Emoluments Clause; (2) plaintiffs
have a cause of action to seek injunctive relief against
the President; and (3) the injunctive relief sought is
constitutional. The Court therefore DENIES the portions of the motion to dismiss that were deferred in
the Court’s prior Order.
II. Factual Background
Plaintiffs allege that the President “has a financial interest in vast business holdings around the
world that engage in dealings with foreign governments and receive benefits from those governments.”
Am. Compl., ECF No. 14 ¶ 2. In particular, the President owns “more than 500 separate entities–hotels,
golf courses, media properties, books, management
companies, residential and commercial buildings, . . .
airplanes and a profusion of shell companies set up to
capitalize on licensing deals.” Id. ¶ 34 (internal quotation mark omitted). Since being elected President,
he has “not divested or otherwise given up his ownership interest in his worldwide business holdings.” Id.
¶ 36.
As a result of his financial interests, plaintiffs allege the President has accepted, and will accept in
2

The Court appreciates the illuminating analysis provided by
the amici.

App. 67
the future, Emoluments from foreign states. Id. ¶ 37.
Indeed, the President has acknowledged “that his
businesses receive funds and make a profit from
payments by foreign governments, and that they will
continue to do so while he is President.” Id. Public reporting has also confirmed this to be the case. Id.
Plaintiffs allege that “[t]hese various benefits
from foreign governments—payments, loans, permits,
exemptions, policy changes, and intellectual property
rights—constitute prohibited ‘Emolument[s]’ and/or
‘present[s]’ under the Foreign Emoluments Clause
. . . .” Id. ¶ 38 (citation omitted). Specifically, the
President has allegedly accepted valuable intellectual
property rights from the Chinese government without
seeking and obtaining the consent of Congress. Id. ¶¶
44-50. The President has also allegedly accepted
payments for hotel rooms and events from foreign
diplomats and from foreign lobbying groups paid for
by foreign governments without seeking and obtaining the consent of Congress. Id. ¶¶ 52-57. The President has allegedly accepted payments from foreign
governments derived from real estate holdings, id. ¶¶
58-62, as well as licensing fees paid by foreign governments for “The Apprentice,” id. ¶¶ 63-65, all without seeking and obtaining the consent of Congress,
id. ¶¶ 59, 62, 65. Finally, the President has allegedly
accepted regulatory benefits from foreign governments without seeking and obtaining the consent of
Congress. Id. ¶¶ 66-67.
III. Standard of Review
“A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(6) “tests the legal sufficiency of a
complaint.” Browning v. Clinton, 292 F.3d 235, 242
(D.C. Cir. 2002). A complaint must contain “‘a short
and plain statement of the claim showing that the
pleader is entitled to relief,’ in order to ‘give the de-

App. 68
fendant fair notice of what the . . . claim is and the
grounds upon which it rests.’” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (alteration in original) (quoting Conley v. Gibson, 355 U.S. 41, 47
(1957)). While detailed factual allegations are not
necessary, a plaintiff must plead enough facts “to
raise a right to relief above the speculative level.” Id.
When ruling on a Rule 12(b)(6) motion, the Court
may consider “the facts alleged in the complaint, documents attached as exhibits or incorporated by reference in the complaint, and matters about which the
Court may take judicial notice.” Gustave–Schmidt v.
Chao, 226 F. Supp. 2d 191, 196 (D.D.C. 2002). The
Court must construe the complaint liberally in plaintiffs’ favor and grant plaintiff the benefit of all reasonable inferences deriving from the complaint. Kowal v. MCI Commc’ns Corp., 16 F.3d 1271, 1276 (D.C.
Cir. 1994). The Court need not accept inferences that
are “unsupported by the facts set out in the complaint.” Id. “Nor must the [C]ourt accept legal conclusions cast in the form of factual allegations.” Id.
“[O]nly a complaint that states a plausible claim for
relief survives a motion to dismiss.” Ashcroft v. Iqbal,
556 U.S. 662, 679 (2009).
IV. Analysis
A. Constitutional Interpretations
“When interpreting a constitutional provision,
[the Court] must look to the natural meaning of the
text as it would have been understood at the time of
the ratification of the Constitution.” Canning v.
N.L.R.B., 705 F.3d 490, 500 (D.C. Cir. 2013) (citing
District of Columbia v. Heller, 554 U.S. 570 (2008)).
“In interpreting the text [the Court is] guided by the
principle that ‘[t]he Constitution was written to be
understood by the voters; its words and phrases were

App. 69
used in their normal and ordinary as distinguished
from technical meaning.’” Heller, 554 U.S. at 576
(quoting United States v. Sprague, 282 U.S. 716, 731
(1931)). “Normal meaning may of course include an
idiomatic meaning, but it excludes secret or technical
meanings that would not have been known to ordinary citizens in the founding generation.” Id. at 57677. In determining the normal and ordinary meaning,
the Court is to consider founding-era dictionaries and
other contemporaneous sources. See, e.g., N.L.R.B. v.
Canning, 573 U.S. 513, 527 (2014); Heller, 554 U.S. at
581-86. When the text is ambiguous, the Court is to
consider the purpose of the clause and the historical
interpretations and applications of the clause. Canning, 573 U.S. at 528-29; see also Heller, 554 U.S. at
592 (“This meaning is strongly confirmed by the historical background of the [provision].”). The Court is
also to “treat[] [government] practice as an important
interpretive factor even when the nature or longevity
of that practice is subject to dispute, and even when
that practice began after the founding era.” Canning,
573 U.S. at 525, 530-32 (considering opinions of the
Office of Legal Counsel (“OLC”) and the Comptroller
General in determining the meaning of the Recess
Appointments Clause).
B. “Emolument” Is Broadly Defined as Any
Profit, Gain, or Advantage3
3

The parties do not dispute that the Clause applies to the
President. See generally Mot. to Dismiss, ECF No. 15-1; Pls.’
Opp’n, ECF No. 17; Def.’s Reply (“Reply”), ECF No. 28. The
Court therefore declines to reach the question despite the argument to the contrary of one amicus brief and based on Judge
Peter J. Messitte’s persuasive analysis of that argument and
conclusion that the Clause does indeed apply to the President in
the only other judicial opinion construing the Clause. See Dis-

App. 70
The Foreign Emoluments Clause provides:
No Title of Nobility shall be granted by
the United States: And no Person holding any Office of Profit or Trust under
them, shall, without the Consent of the
Congress, accept of any present, Emolument, Office, or Title, of any kind
whatever, from any King, Prince, or foreign State.
U.S. Const. art. I, § 9, cl. 8.
1. The Ordinary Meaning, Text, Structure, Adoption, and Historical Interpretation of the Clause; Constitutional
Purpose; and Consistent Executive
Branch Practice Support a Broad
Interpretation of “Emolument”
a. Ordinary Meaning of “Emolument”
The parties dispute whether the profits that the
President’s business interests earn from foreign governments are “Emoluments” covered by the Clause.
The President contends that the Clause “is not a
blanket prohibition on commercial transactions with
foreign governments by businesses in which the official has a financial interest,” but rather “applies only
to the receipt of compensation for services rendered
by an official in an official capacity or in an employment (or equivalent) relationship with a foreign government, and to the receipt of honor and gifts by an
office-holder from a foreign government.” Mot. to
trict of Columbia v. Trump, 315 F. Supp. 3d 875, 882-87 (D. Md.
2018) (“Trump”); see also Br. for Scholar Seth Barrett Tillman
and Judicial Education Project as Amici Curiae in Supp. of the
Def., ECF No. 16-1.

App. 71
Dismiss, ECF No. 15-1 at 33-34. In support of his position, the President explains that at the time of the
Nation’s founding, an “‘[E]molument’ was a common
characteristic of a federal office . . . comprehensively
describ[ing] ‘every species of compensation or pecuniary profit derived from a discharge of the duties of
the office.’” Id. at 34 (alteration in original) (first citing United States v. Hartwell, 73 U.S. 385, 393
(1867); and then quoting Hoyt v. United States, 51
U.S. 109, 135 (1850).4 According to the President,
this was because most federal officials did not receive
salaries as is the case today, but rather, were compensated by fees in exchange for their services. Id.
Therefore, he argues, this “common usage” of the
word at the time of the founding compels interpreting the term to mean “profit arising from an office or
employ.” Id. at 35 (quoting James Barclay, A Complete & Universal English Dictionary on a New Plan
(1774) (“Barclay’s Dictionary”)).5 To illustrate, the
President provides two examples of what would con-

4

The President’s added emphasis on the phrase and reliance
on this case are misleading given that the Court was not construing the meaning of the term “Emolument” generally, but
rather a statutory provision concerning “the annual
[E]moluments of any [customs] collector.” Hoyt, 51 U.S. at 135.
Accordingly, the Emolument would necessarily derive from the
discharge of the duties of the office.
5 Plaintiffs point out that Barclay’s dictionary defines “employ” not as “employment” but as “a person’s trade, business”
and “a public office” and therefore this source supports defining
an Emolument to include “profit arising from . . . a person’s
trade, business.” Pls.’ Opp’n, ECF No. 17 at 42. Plaintiffs contend that this definition does not therefore support the President’s position. Id. at 42-43.

App. 72
stitute Emoluments under his definition: (1) “a federal official would receive an Emolument if he or she
was paid by a foreign government to take certain official actions”; and (2) “an Emolument would [] be received if an official became an employee or entered
an employment-like relationship with the foreign
government, such as if a federal government lawyer
provided legal advice and services to a paying foreign
power.” Id. According to the President, “[t]his interpretation is consistent with the nature of the other
prohibited categories in the Foreign Emoluments
Clause: present, office, and title, which are all things
personally conferred or bestowed on a U.S. official
holding an ‘Office of Profit or Trust.’” Id.
Plaintiffs rely on contemporaneous dictionaries,
general- purpose writings, contemporaneous state
constitutions, and legal decisions to support their argument that at the time the Constitution was written, “‘[E]molument’ was a commonly used term that
often referred to profit or gain in general.” Pls.’
Opp’n, ECF No. 17 at 39 (citing The Oxford English
Dictionary (2d ed. 1989) (referring to eighteenth century texts); Samuel Johnson, A Dictionary of the English Language (1755); John Mikhail, The Definition
of “Emolument” in English Language & Legal Dictionaries, 15-23-1806, at 8 (July 9, 2017) (working
paper),
https://papers.ssrn.com/so13/papers.cfm?abstract_id=
2995693 (explaining that [E]molument was defined
as “‘profit,’ ‘advantage,’ ‘gain,’ or ‘benefit’ . . . in every
known English language dictionary” published in the
seventeenth and eighteenth centuries, that this was
the exclusive definition provided in over 92% of these
dictionaries, and that the President’s preferred definition appears in less than 8% of these dictionaries,
but that the broader definition also appears in these

App. 73
latter dictionaries)). Plaintiffs also emphasize, again
relying on contemporaneous documents, that the
term “was frequently used to mean the profits accruing from private financial transactions.” Id. at 40.
Plaintiffs maintain that interpreting the term to
“requir[e] an employment-like relationship[] is based
on a flawed reading of Founding-era dictionaries . . .
[and] requiring the provision of specific services in an
official capacity” lacks legal support. Id. at 41. Moreover, they argue that even if the Court were to adopt
the narrow definition that appears in the Oxford
English Dictionary–“[p]rofit or gain arising from station, office, or employment; dues, reward; remuneration, salary”–“the gain arising from President
Trump’s status as the head of a worldwide business
empire” falls within this definition. Id. Furthermore,
according to plaintiffs, “[t]he narrower definition the
President cites also embraces profit or gain ‘arising
from [his] office,’ as when foreign governments seek
his favor by granting him lucrative trademarks or
selecting his hotels” because these “benefits ‘arise
from’ the office he holds, because (the Plaintiffs allege) they are being given to him because he is the
President.” Id. (citing Am. Compl., ECF No. 14 ¶¶ 48,
54).
The President contends that the number of
sources citing the two competing definitions is not
relevant because the meaning of the term in the
Clause depends on the constitutional context, the
history of the Clause, and founding-era practices.
Reply, ECF No. 28 at 22. The President also asserts
that plaintiffs’ reliance on Professor Mikhail’s article
is misplaced because another law review article has
criticized it for making inaccurate assumptions. Id.
at 22-23. The President argues that Professor Mikhail’s article and the sources it references actually

App. 74
support his position because they “demonstrate that
the President’s definition is closely related to the etymology of [E]molument, which is profit derived from
labor, or more specifically, from grinding corn.” Id. at
23. The President also notes that the Oxford English
Dictionary lists his definition of “emolument” first,
and before plaintiffs’ broader definition, indicating
that the President’s definition predates that of the
plaintiffs. Id. at 24.
Amici Legal Historians soundly reject the President’s “narrow definition of ‘Emolument’ [as] inaccurate, unrepresentative, and misleading”:
Little or no evidence indicates that the
two obscure sources—Barclay (1774)
and Trusler (1766)—on which [the President] relies for [his] “office- and employment-specific”
definition
of
“[E]molument” were owned, possessed,
or used by the founders, let alone had
any impact on them, or on those who
debated and ratified the Constitution.
For example, neither of these sources is
mentioned in the more than 178,000
searchable documents in the Founders
Online database, which makes publicly
available the papers of the six most
prominent founders. Nor do these volumes appear in other pertinent databases, such as Journals of the Continental Congress, Letters of Delegates to
Congress, Farrand’s Records, Elliot’s
Debates, or the Documentary History of
the Ratification of the Constitution. By
contrast, all of the dictionaries that the
founding generation did possess and use
regularly define “[E]molument” in the

App. 75
broad manner favoring the plaintiffs:
“profit,” “advantage,” or “benefit.”
Second, a careful review of English language dictionaries from 1604 to 1806
shows
that
every
definition
of
“[E]molument” published during this
period relies on one or more of the elements of the broad definition [the President] rejects in [his] brief: “profit,” “advantage,” “gain,” or “benefit.” . . . Finally, Trusler’s volume is not a standard
dictionary, but rather a thesaurus,
which presumes that “gain,” “profit,”
and “[E]molument” are synonyms;
moreover,
its
explanation
of
“[E]molument” was copied directly from
a French thesaurus, hence it is not even
reliably grounded in English usage. The
impression [the President] creates in
[his] brief by contrasting four historical
definitions of “[E]molument”—two broad
and two narrow—is, therefore, highly
misleading.
Br. of Amici Curiae by Certain Legal Historians on
Behalf of Pls. (“Br. of Legal Historians”), ECF No. 46
at 12-13 (footnotes omitted).
The President does not dispute that the broader
definition existed at the time the Constitution was
ratified, Mot. to Dismiss, ECF No. 15-1 at 37, and
plaintiffs acknowledge that a narrower definition existed at the time, Pls.’ Opp’n, ECF No. 17 at 41.
Plaintiffs’ main contention is that because the evidence demonstrates that the broader definition was
more pervasive, it was what was intended in the
Clause. The President responds that the narrower
definition is the “better one” to use given the context

App. 76
and history of the Clause.
The Court is persuaded that the weight of the evidence in “founding-era dictionaries and other contemporaneous sources” supports the broad meaning
of the term advocated by plaintiffs and supported by
the Legal Historians. Trump, 315 F. Supp. 3d at 882
(citing Canning, 573 U.S. at 527). The fact that there
is evidence from founding-era sources that both the
broad definition advocated by plaintiffs, as well as a
narrower definition associating “Emolument” with
employment, existed at the ratification of the Constitution, however, suggests some ambiguity in the
term. Accordingly, the Court considers the surrounding text, structure, adoption, historical interpretation, and purpose of the Clause, as well as Executive
Branch practice to determine the meaning of “Emolument.” See Canning, 573 U.S. at 528-29 (when the
constitutional text is ambiguous, the court is to consider the purpose of the clause and the historical interpretations and applications of the clause).
b. Text and Structure of the Clause,
and Other Uses in the Constitution
The President acknowledges that the broader
definition of “Emolument” advocated by plaintiffs
“resembles a broader definition that also existed at
the time of the founding” but points to the legal interpretive principle that a word with different meanings should be interpreted by reference to the context. Mot. to Dismiss, ECF No. 15-1 at 37-38. Accordingly, “when read harmoniously with the rest of the
Clause, [Emolument] has the natural meaning of the
narrower definition of profit arising from an official’s
services rendered pursuant to an office or employ.”
Id. at 38. The President also asserts that plaintiffs’
broad definition of “Emolument” would subsume the
term “present” in the Clause and render it redun-

App. 77
dant, noting that plaintiffs use the terms “Emolument” and “present” interchangeably. Id. at 38-39
(citing Holmes v. Jennison, 39U.S. 540, 570-71 (1840)
(“In expounding the Constitution of the United
States, every word must have its due force, and appropriate meaning; for it is evident from the whole
instrument, that no word was unnecessarily used, or
needlessly added.”)).
The President contends that the other two instances in which “Emolument” is used in the Constitution provide further support for his narrow definition because “[e]ach is associated with an office and
refers to compensation for services rendered in the
capacity as the holder of that office.” Id. at 36 (citing
U.S. Const. art. II, § 1, cl. 7 (“The President, shall, at
stated Times, receive for his services, a Compensation . . . and he shall not receive within that Period
any other Emolument from the United States, or any
of them.”); U.S. Const. art. I, § 6, cl. 2 (“No Senator or
Representative shall, during the Time for which he
was elected, be appointed to any civil Office under
the Authority of the United States, which shall have
been created, or the Emoluments whereof shall have
been encreased during such time.”)).
Plaintiffs argue that even if the President’s narrow definition of “Emolument” existed, the Clause
does not use the word in such a narrow sense, because to do so would render the phrase “of any kind
whatever” surplusage. Pls.’ Opp’n, ECF No. 17 at 43.
Plaintiffs assert that the purpose of this phrase “is to
rule out interpretations [of ‘Emoluments’] that would
allow some ‘kinds’ of emolument to be accepted.” Id.
at 44. Plaintiffs point to the Incompatibility Clause
to support their argument that the reach of the
Clause is broad. Id. The Incompatibility Clause provides that no member of Congress “shall, during the

App. 78
Time for which he was elected, be appointed to any
civil Office . . . the Emoluments whereof shall have
been encreased during such time.” U.S. Const. art. I,
§ 6, cl.2. Plaintiffs point out that this Clause applies
only to Emoluments bestowed by the federal government upon civil office holders, whereas the Foreign Emoluments Clause contains no such prohibition. Pls.’ Opp’n, ECF No. 17 at 44. Plaintiffs also argue that the reason the Clause permits exceptions—
with the consent of Congress—is precisely because
its reach is so broad. Id.
In response to plaintiffs’ argument that the
phrase “of any kind whatever” compels their preferred definition, the President argues that this
phrase “emphasizes the Clause’s reach—every kind
of [E]molument, present, office, or title—and is not a
basis to choose which definition” was intended in the
Clause. Reply, ECF No. 28 at 25. In response to
plaintiffs’ argument that the President’s definition
renders “of any kind whatever” to be surplusage because of the word “any,” the President posits that
there is no redundancy in his interpretation because
“[t]he more plausible role of this first use of the word
‘any’ in the Clause is numeric—that no prohibited
Emoluments may be received by a covered official
without the consent of Congress, whereas the phrase
‘of any kind whatever’ operates to ensure that every
type of the identified compensation is also prohibited.” Id. at 26.
Finally, the President disputes that use of the
term “Emoluments” in the Incompatibility Clause
bolsters plaintiffs’ interpretation of the term because
“the fact that a reference to an office is not included
in the Foreign Emoluments Clause is simply due to
the fact that the Foreign Emoluments Clause has a
broader reach—it regulates not only compensation or

App. 79
benefits arising from holding federal office but also
any employment-like relationship between a foreign
government and a covered official.” Id. The President
notes that the term “Emolument” is used only one
other time in the Constitution—in the Domestic
Emoluments Clause which provides that “[t]he President shall, at stated Times, receive for his Services,
a Compensation . . . and he shall not receive within
that Period any other Emolument from the United
States, or any of them.” Id. at 27 (quoting U.S. Const.
art. II, § 1, cl.7). The President concludes that it
would not make sense for the term to have different
meanings in the Constitution and that “all three
clauses in which the term appears are tied to holding
office and regulat[ing] the conduct of office-holders.”
Id.
The Court is persuaded that the text and structure of the Clause, together with the other uses of
the term in the Constitution, support plaintiffs’ definition of “Emolument” rather than that of the President. The Clause bans, without congressional approval, “any present, Emolument, Office, or Title, of
any kind whatever, from any King, Prince, or foreign
State.” U.S Const. art. I, § 9, cl. 8 (emphasis added).
The President’s argument that the phrase “of any
kind whatever” should be understood to modify
“Emoluments” defined narrowly rather than being “a
basis to choose which definition” was meant in the
Clause, Reply, ECF No. 28 at 25, is unpersuasive and
inconsistent with his own argument. The President
himself argues that a word with different meanings
should be interpreted by reference to the context.
Mot. to Dismiss, ECF No. 15-1 at 38. “[T]he meaning
of a term may be enlarged or restrained by reference
to the object of the whole clause in which it is used.”
Virginia v. Tennessee, 148 U.S. 503, 519 (1893). Here,

App. 80
it is uncontested that the broad meaning and a narrower meaning tied to employment existed at the
time the Constitution was ratified, and this expansive modifier, which as plaintiffs point out is used
nowhere else in the Constitution, logically serves to
ensure that the acceptance of any foreign Emolument, however defined, is prohibited without congressional consent. See also Trump, 315 F. Supp. 3d
at 888 (“If there were any doubt as to the limits of
the Foreign Clause, the Framers used the word ‘any’
twice, ensuring a broad and expansive reach.”).
The President’s argument that the use of “Emolument” in the Incompatibility Clause and the Domestic Emoluments Clause supports his narrow definition is similarly unconvincing. In the former, “Emolument” specifically refers to an office, indicating that
when the Founders intended for an Emolument to
refer to an official’s salary or payment associated
with their office, they said so explicitly. See U.S.
Const. art. I, § 6, cl. 2. In the latter, the Emoluments
that are prohibited are those that would be received
“from the United States or any of them.” U.S. Const.
art. II, § 1, cl. 7. Thus, rather than “Emolument” having different meanings the three times it is used in
the Constitution, more logically, the broader meaning is modified in each Clause according to the purpose of the Clause. See Virginia, 148 U.S. at 519; see
also Trump, 315 F. Supp. 3d at 888 (“If
‘[E]molument’ were always to be read as a synonym
for salary or payment for official services rendered,
th[e] modifier in the Incompatibility Clause would
have been unnecessary.”).
Also unconvincing is the President’s argument
that adopting plaintiffs’ definition of “Emolument” to
mean “profit,” “gain,” or “advantage” would render
the term “present” redundant. The President points

App. 81
out that a “present” was defined as it is today:
“[s]omething bestowed upon another without price or
exchange; the act of giving.” Mot. to Dismiss, ECF
No. 15-1 at 39 (quoting Barclay’s Dictionary). As
Judge Messitte observed, defining an “Emolument”
as a “profit,” “gain,” or “advantage” “ensure[s] that
the Clause covered all types of financial transactions—solicited or unsolicited, reciprocated or unreciprocated, official or private”—even if “Emolument”
is sometimes used synonymously with “present.”
Trump, 315 F. Supp. 3d at 889.
Furthermore, Judge Messitte points out that the
President’s narrow definition “would seem to create
its own concerning redundancies within the Constitution.” Id. As the President explained, a practical
example of his definition would be when “a federal
official would receive an [E]molument if he or she
was paid by a foreign government to take certain official actions.” Mot. to Dismiss, ECF No. 15-1 at 35.
Judge Messitte persuasively states that this example
is tantamount to defining the transaction as nothing less than one of federal
bribery, a crime which prohibits a federal public official from, directly or indirectly, receiving or accepting “anything
of value” in return for “being influenced
in the performance of any official act.”
18 U.S.C. § 201(b)(2). Given that Article
II, Section 4 of the Constitution already
addresses the crime of bribery, making
it an impeachable offense, there would
have been little need to include two additional and distinct Emoluments
Clauses prohibiting the acceptance of
money from foreign or state governments for official services rendered.

App. 82
Moreover, it seems highly unlikely that
the Framers would have intended bribery to be both an impeachable offense
and, at the same time, an activity Congress could consent to when a foreign
government donor is involved. The President makes no attempt to come to
terms with this anomaly.
Trump, 315 F. Supp. 3d at 889 (footnote omitted). Finally, there is no question that the receipt of Emoluments is tied to the office of President and regulating
his conduct as President, but that does not compel
defining “Emolument” as narrowly as the President
advocates.
c. Adoption and Historical Interpretation of the Clause
The President argues that “[t]he adoption and
historical interpretation of the . . . Clause are consistent with the office- and employment-specific construction of the term ‘Emolument.’” Mot. to Dismiss,
ECF No. 15-1 at 40. In support, the President observes that “the history of the Clause’s adoption [is]
devoid of any concern about an official’s private commercial businesses.” Id. at 42. Plaintiffs describe this
as a “dog that didn’t bark” argument, stating that
even if this is true, “it [] tells us nothing. Discussion
of the Clause was not extensive because the Clause
was not controversial.” Pls.’ Opp’n, ECF No. 17 at 44.
Furthermore, according to plaintiffs, “the agrarian
economy of the eighteenth century, the comparatively
limited role of government, and the primitive travel
technology available would have made private commerce with foreign states an unlikely conduit for foreign influence at the time.” Id. at 44-45.
Citing examples of early Presidents exporting ag-

App. 83
ricultural products to foreign countries, the President
argues that historical evidence supports his position
that the Clause was not intended “to reach commercial transactions that a President (or other federal
official) may engage in as an ordinary citizen through
his business enterprises.” Mot. to Dismiss, ECF No.
15-1 at 43-44. Plaintiffs point out that none of the examples are of commercial transactions with a foreign
government, thus the President can “claim only that
they might have conducted such business.” Pls.’
Opp’n, ECF No. 17 at 45. The President responds
that while the records are limited and inconclusive,
because “there is no question that private business
pursuits by federal officials, including by early Presidents, were common at the time of the Nation’s
founding[,] [i]t is reasonable to infer that at least
some of their transactions may have been with foreign or domestic government actors, including foreign
state-chartered trading companies.” Reply, ECF No.
28 at 29. The President relies heavily on one historical incident—President George Washington’s purchase of land from the federal government in the
then-Territory of Columbia—to argue that if plaintiffs’ definition of “Emoluments” applies, President
Washington would have violated the Domestic Emoluments Clause, pointing out that the precedents
President Washington set are considered authoritative. Mot. to Dismiss, ECF No. 15-1 at 45-46.
Finally, the President argues that a proposed
constitutional amendment that would have applied
the prohibitions in the Clause to all private citizens
undermines the broad definition, asserting that it is
“implausible that this amendment was intended or
understood as providing for the revocation of the citizenship of anyone engaging in commerce with foreign
governments or their instrumentalities . . . [and] . . .

App. 84
inconceivable that Congress and nearly three-fourths
of the States intended to strip the citizenship of, for
example, those hotel owners whose customers included visiting foreign diplomats using government
funds.” Id. at 47. Amici Legal Historians point out,
however, that “[i]n 1810, Americans conceived precisely of this problem” given the historical context.
Br. of Legal Historians, ECF No. 32 at 33. Plaintiffs
also point out that the President’s argument is selfdefeating because, for example, “a household servant
temporarily hired by a visiting foreign diplomat . . .
would be ‘in an employment- like relationship’ with
the diplomat.” Pls.’ Opp’n, ECF No. 17 at 45 (citing
Mot. to Dismiss, ECF No. 15-1 at 22). The Court is
persuaded that the adoption of the Clause and its historical interpretation support plaintiffs’ definition rather than that of the President. It is well-established
that there was little discussion of the Clause by the
Framers because it was noncontroversial. See Br. of
Legal Historians, ECF No. 46 at 24. Furthermore, the
Court declines to make the inference advocated by
the President—that it is reasonable to infer that
some of the early Presidents’ private business pursuits would have been with foreign state-chartered
trading companies— because the President has provided no evidence to justify making such an inference. See generally Mot. to Dismiss, ECF No. 15-1;
Reply, ECF No. 28. On a motion to dismiss, it is the
plaintiff, not the defendant, who receives the benefit
of all reasonable inferences deriving from the complaint. See Kowal, 16 F.3d at 1276. Similarly, the
Court declines to infer that the President’s narrow
definition should be adopted based on President
Washington’s purchase of public land, potentially in
violation of the Domestic Emoluments Clause, given
this was a single incident as compared with the great
weight of the historical interpretation of the Clause.

App. 85
See also Trump, 315 F. Supp. 3d at 903-904 (noting
that the facts regarding this transaction are “seriously incomplete”). Finally, the Court is not persuaded
that the President’s reliance on a proposed constitutional amendment that never became law, and for
which he is unable to cite any floor debates that
would illuminate the intent of the amendment,
should be accorded any weight in determining the
meaning of “Emolument.”
d. Purpose of the Clause
The President pays little attention to interpreting
the meaning of “Emolument” by reference to the purpose of the Clause, briefly acknowledging that
“[a]lthough the Clause was intended to combat corruption and foreign influence, the text, original understanding, and historical practice provide no support for Plaintiffs’ inferential leap from the Clause’s
purpose to a blanket prohibition on receiving ‘any
monetary or nonmonetary benefit’ regardless of context.” Mot. to Dismiss, ECF No. 15-1 at 53. The President also notes that the Framers “gave no indication
that they intended to require officeholders to divest
their private commercial businesses in order to assume federal office.” Id. The President argues that
plaintiffs’ definition would result in “absurd consequences” because, among other things, royalties from
foreign book sales, United States Treasury bonds,
and stock holdings could be considered prohibited
foreign Emoluments. Id. at 53-56.
Plaintiffs argue that even if the term is considered ambiguous, any ambiguity should be resolved
against the President because his proposed definition
“would defeat the Clause’s purpose—throwing open
the doors to the corruption of any officeholder
wealthy enough to own businesses and reducing the
Clause to a mere bribery law, not a prophylactic safe-

App. 86
guard against the possibility of corruption.” Pls.’
Opp’n, ECF No. 17 at 45. Plaintiffs cite contemporaneous documents to support their argument that the
purpose of the Clause was “to exclude corruption and
foreign influence,” id. at 46 (quoting 3 Elliot’s Debates
465 (Randolph)), prompted by the need to guard
against “the influence which foreign powers may attempt to exercise in our affairs,” id. (quoting Tench
Coxe, An Examination of the Constitution for the
United States of America, No. 4 (Oct. 21, 1787), and to
“lock up every door to foreign influence,” id. (quoting
5 Annals of Cong. 1584 (1978) (Claiborne)). Plaintiffs
also cite contemporary OLC memoranda which consistently give the Clause a broad scope. Id. at 46-47.
Amici Former Government Ethics Officers, former government officials tasked with interpreting the
Clause, dispute that “absurd consequences” would result from adopting plaintiffs’ broad definition of
“Emolument” because “the government applies a totality-of-the-circumstances approach to Emoluments
Clause questions, with a bias in favor of breadth, and
a keen eye to the anti-corruption purpose of the
clause[].” Br. of Former Gov’t Ethics Officers as Amici
Curiae Supporting Pls.’ Opp’n to Def.’s Mot. to Dismiss (“Br. of Former Gov’t Ethics Officers”), ECF No.
42 at 10. So, for example, amici dispute that royalties
from foreign book sales would be subject to the
Clause unless “a foreign government attempts to influence a President by purchasing copies of his book,
or if a competent authority finds a real potential for
such influence.” Id. at 15. As to restricting the ability
to hold Treasury bonds or stock holdings, amici state
that “these payments are unlikely to raise concerns
because it is highly doubtful that holding publicly
traded securities would create the potential for others
to exercise undue influence over the holder.” Id. at

App. 87
14. In view of the overwhelming evidence pointing to
over two hundred years of understanding the scope of
the Clause to be broad to achieve its purpose of
guarding against even the possibility of “corruption
and foreign influence,” 3 Records of the Federal Convention of 1787, at 327 (Max Farrand ed., 1966), the
Court is persuaded that adopting plaintiffs’ broad
definition of “Emolument” ensures that the Clause
fulfills this purpose. See also Canning, 573 U.S. at
528 (“[W]e believe the [Recess Appointments]
Clause’s purpose demands the broader interpretation” in light of the ambiguity of the constitutional
text.). In view of the arguments of amici to the contrary, the Court is also not persuaded that “absurd
consequences” would result from this broad definition
in view of the consistent Executive Branch practice of
applying a totality-of-the- circumstances approach to
applying the Clause. For the same reason, it is clear
that adopting the plaintiffs’ definition would not result in a “blanket prohibition” that disregards context.
e. Executive Branch Practice
As the Court explained in Blumenthal I,
“[h]istorically, Presidents have complied with the
Clause by either seeking and obtaining congressional
consent prior to accepting foreign presents or Emoluments, or by requesting an opinion from the Executive or Legislative Branch’s advisory office as to
whether the Clause applies.” Blumenthal I, 335 F.
Supp. 3d at 53 (citing Br. of Federal Jurisdiction and
Constitutional Law Scholars as Amicus Curiae in
Supp. of Pls., ECF No. 44 at 24 (“Br. of Federal Jurisdiction and Constitutional Law Scholars”)). “Modern
Presidents, except for President Trump, have sought
advice from OLC prior to accepting potentially covered Emoluments.” Id. at 53-54 (citing Br. of Federal

App. 88
Jurisdiction and Constitutional Law Scholars, ECF
No. 44 at 25). The Comptroller General of the United
States is also charged with interpreting the application of the Clause. Mot. to Dismiss, ECF No. 15-1 at
49.
The President points to interpretations from
these authorities as support for his preferred definition of “Emolument” because “[i]n every published
OLC or Comptroller General opinion in which proposed conduct was determined to involve prohibited
[E]moluments, the determination involved an employment relationship (or a relationship akin to an
employment relationship) with the foreign government.” Id. Plaintiffs respond that the reason for this
is simple: “OLC and the Comptroller General render
decisions in response to requests from federal officers.
Most such officers are not real estate magnates, but
rather people who earn money by providing their individual labor or expertise.” Pls.’ Opp’n, ECF No. 17
at 49.
Amici Former Government Ethics Officers explain that the OLC, Comptroller General, and Department of Defense apply the following principles
when determining whether the Clause applies to the
situation at issue. Br. of Former Gov’t Ethics Officers,
ECF No. 42 at 7-8. First, because the “‘expansive language and underlying purpose . . . strongly suggest
that [the Clause] be given broad scope’ . . . analyses
have therefore usually started from the presumption
that the clause applies . . . [because]
. . . ‘[t]hose
who hold offices under the United States must give
the government their unclouded judgment and their
uncompromised loyalty.’” Id. at 8-9 (internal citations
and quotations omitted). Second, and as explained
above, the government uses a “totality-of-thecircumstances approach” in determining whether the

App. 89
Clause applies to the situation and “has never come
close to adopting anything like the rigid, narrow rule
advanced by the [President].” Id. at 10-11. As an example, “the government has reached varying conclusions as to whether particular payments come from a
‘foreign state’ depending on how much control foreign
governments exercise over those payments.” Id. at 10.
Amici also point out that “the government has never
determined that the clause permits a public officeholder to maintain an interest in a business that
stands to benefit by virtue of that person holding public office.” Id. at 11. Amici explain that officials pay
“close attention to whether the arrangement creates
even a potential for improper foreign government influence over a person in an office of public trust.
When such a potential exists—even if the probability
is quite low—the government has found that such arrangements violate the Foreign Emoluments Clause.”
Id.
Given that there is only one other judicial opinion
interpreting the Clause, the Court looks to OLC and
Comptroller General opinions as sources of authority
for how “Emolument” is defined and how the Clause
is interpreted and applied. Canning, 573 U.S. at 525
(noting that “the longstanding ‘practice of the government’ can inform our determination of ‘what the
law is’” and that “this Court has treated practice as
an important interpretive factor even when the nature or longevity of that practice is subject to dispute,
and even when that practice began after the founding
era”) (citations omitted). OLC opinions have consistently cited the broad purpose of the Clause and broad
understanding of “Emolument” advocated by plaintiffs to guard against even the potential for improper
foreign government influence. E.g., Application of
Emoluments Clause to Part-Time Consultant for the

App. 90
Nuclear Regulatory Commission, 10 Op. O.L.C. 96, 98
(1986) (The Clause’s “expansive language and underlying purpose . . . strongly suggest that it be given
broad scope.”); Applicability of the Emoluments
Clause to Non-Government Members of ACUS, 17 Op.
O.L.C. 114, 121 (1993) (“The language of the Emoluments Clause is both sweeping and unqualified.”);
Memorandum from Norbert A. Schlei, Assistant Att’y
Gen., Office of Legal Counsel, to Andrew
F.
Oehmann, Office of the Att’y Gen., Re: Invitation by Italian Government to Officials of the Immigration and
Naturalization Service & a Member of the White
House
Staff
2
(Oct.
16,
1962),
https://www.justice.gov/olc/page/file/935741/download
(noting “the sweeping nature of the constitutional
prohibition and the fact that in the past it has been
strictly construed, being directed against every possible kind of influence by foreign governments over officers of the United States”). Accordingly, adopting
the President’s narrow definition of “Emolument”
would be entirely inconsistent with Executive Branch
practice defining “Emolument” and determining
whether the Clause applies.
Significantly, the President has not cited an OLC
or Comptroller General opinion that supports his position. See generally Mot. to Dismiss, ECF No. 15-1;
Reply, ECF No. 28. To the contrary, he can only assert that his position “is not inconsistent with the
conclusions of any published OLC or Comptroller
General opinions.” Def.’s Suppl. Br. in Supp. of his
Mot. to Dismiss and in Resp. to the Brs. of Amici Curiae, ECF No. 51 at 23-24. However, one opinion directly contradicts his narrow reading of the Clause,
and another undermines his narrow definition of
“Emolument.”
In 1993, OLC issued an opinion stating that non-

App. 91
governmental lawyers who were members of the Administrative Conference of the United States
(“ACUS”) could not receive partnership distributions
from their respective firms where the distribution
would include fees from foreign government clients
even though the lawyers “did not personally represent a foreign government, and indeed had no personal contact with that client of the firm.” Applicability of
the Emoluments Clause to Non- Government Members
of ACUS, 17 Op. O.L.C. at 119. OLC reasoned that:
Because the amount the Conference
member would receive from the partnership’s profits would be a function of
the amount paid to the firm by the foreign government, the partnership would
in effect be a conduit for that government. Thus, some portion of the member’s
income could fairly be attributed to a foreign government. We believe that acceptance of that portion of the member’s
partnership share would constitute a
prohibited [E]molument.
Id.6 Judge Messitte noted that “[t]his language directly contradicts the President’s suggestion that
there can be no violation of the Foreign [Emoluments] Clause if the federal official is receiving benefits in a private capacity.” Trump, 315 F. Supp. 3d at
902. And as amici observe, this Opinion “devastates
the [President’s] primary argument for a narrow
6

OLC later determined that non-governmental members of
ACUS were not subject to the Clause, but did not its modify determination that the distribution was an Emolument. Applicability of the Emoluments Clause to Nongovernmental Members of
ACUS, 2010 WL 2516024 (June 3, 2010).

App. 92
reading of the clause because it shows that even an
attenuated economic interest in ordinary commercial
transactions that generate value for both sides can
violate the [Foreign] Emoluments Clause if that
business nevertheless creates the potential for undue
influence over public officials.” Br. of Former Gov’t
Ethics Officers, ECF No. 42 at 21. The Court agrees.
Nor does the Comptroller General opinion concluding that President Ronald Reagan’s receipt of
California pension benefits did not violate the Domestic Emoluments Clause provide support for the
President’s definition of “Emolument.” The Comptroller General determined that “the term ‘[E]molument’
cannot be considered to extend to benefits that have
been earned or to which entitlement arose before his
occupancy of that office, and that clearly have no
connection, either direct or indirect, with the Presidency . . . [because they]. . . cannot be construed as
being in any manner received in consequence of his
possession of the Presidency.” Hon. George J. Mitchell, U.S. Senate, B-207467, 1983 WL 27823, at *3
(Comp. Gen. Jan. 18, 1983). Those retirement benefits are entirely distinguishable from the situation
here, where it is alleged that, among other things,
foreign diplomats stay at the President’s Washington
D.C. hotel “to curry favor with [him] because of his
position as President of the United States,” Am.
Compl., ECF No. 14 ¶ 54; and that “his businesses
receive funds and make a profit from payments by
foreign governments, and that they will continue to
do so while he is President,” id. ¶ 37; see also Trump,
315 F. Supp. 3d at 903 (observing that “profits received from foreign or domestic governments that
patronize the Trump International Hotel for the express purpose of potentially currying favor with a sitting President present a stark contrast to the fully

App. 93
vested retirement benefits that then-Governor
Reagan earned from the State of California which
the State of California was not free to withdraw.”).
Finally, the President finds support for his preferred definition in statutory provisions that exempt
certain employment relationships between government officials and foreign officials from the scope of
the Clause, asserting that “[h]ad Congress understood the Clause to reach more broadly than compensation arising from personal services rendered to a
foreign government, it surely would have exempted a
wider range of activities.” Mot. to Dismiss, ECF no.
15-1 at 52. The Court is not persuaded that the President’s reliance on statutory provisions that were
never enacted should be accorded any weight in determining the scope of the Clause.
Consistent Executive Branch practice, which
“has never come close to adopting anything like the
rigid, narrow rule advanced by the [President],” Br.
of Former Gov’t Ethics Officers, ECF No. 42 at 10-11,
clearly supports plaintiffs’ broad definition of “Emolument” rather than that of the President. Accordingly, “Emolument” is broadly defined as any profit,
gain, or advantage. See also Trump, 315 F. Supp. 3d
at 905 (finding that the term Emolument “extends to
any profit, gain, or advantage, of more than de minimis value, received by [the President], directly or
indirectly, from foreign . . . governments”).
C. Plaintiffs Have Stated a Claim Under the
Foreign Emoluments Clause
With “Emolument” defined broadly as any profit,
gain, or advantage, it is clear that the Amended
Complaint states a plausible claim against the President for violations of the Clause. Plaintiffs have alleged that the President has accepted a variety of

App. 94
Emoluments from foreign governments—intellectual
property rights, payments for hotel rooms and
events, payments derived from real estate holdings,
licensing fees for “The Apprentice,” and regulatory
benefits—without seeking and obtaining the consent
of Congress. Am. Compl., ECF No. 14, ¶¶ 44-67. Accepting the allegations in the Amended Complaint as
true, which the Court must at this juncture, plaintiffs’ allegations state a plausible claim for relief, and
survive the President’s motion to dismiss. Iqbal, 556
U.S. at 679.
D. Plaintiffs Have a Cause of Action to Seek
Injunctive Relief and the Injunctive Relief
Sought Is Constitutional
1. Plaintiffs Have a Cause of Action to
Seek Injunctive Relief
The President, analogizing the Foreign Emoluments Clause to the Supremacy Clause, argues that
the Clause “is not a source of federal rights such that
the Court may imply a cause of action under the
Clause.” Mot. to Dismiss, ECF No. 15-1 at 29. As he
must, however, the President acknowledges that equitable relief is available “to enjoin unconstitutional
actions by public officials,” but emphasizes that such
relief is only available in “a proper case,” id. (citing
Armstrong v. Exceptional Child Ctr., Inc., 135 S. Ct.
1378, 1384 (2015)), as “an act of equitable discretion
by the district court,” id. (citing eBay, Inc. v. MercExchange, LLC, 547 U.S. 388, 391 (2006). The President argues that this is not “a proper case” for the
Court to exercise its equitable discretion for three
reasons. Id. at 30-32. First, “[p]laintiffs are not
preemptively asserting a defense to a potential enforcement action against them by the Government,
which is the paradigmatic situation where implied
equitable claims against the Government have been

App. 95
recognized.” Id. at 30. “Second, equity ‘may not be
used to create new substantive rights’ . . . and the . . .
Clause does not create any personal or judicially enforceable rights.” Id. at 31. As part of this point, the
President argues that plaintiffs cannot show that
their injury falls within the zone of interests protected by the Clause because only Congress as a whole,
and not its individual members, fall within the zone
of interests protected by the Clause. Id. Third, plaintiffs “can obtain relief only by suing the President
himself, which (if not legally foreclosed) is at a minimum grounds for extreme equitable restraint.” Id. at
32 (citation omitted). The President concludes by reiterating his argument that plaintiffs’ remedy lies
with Congress rather than the Courts. Id.
Plaintiffs respond that they have an implied
cause of action to seek injunctive relief based on
long-standing Supreme Court precedent ensuring the
“‘ability to sue to enjoin unconstitutional actions’ by
government officials.” Pls.’ Opp’n, ECF No. 17 at 5051 (quoting Armstrong, 135 S. Ct. at 1385-86). According to plaintiffs, an implied private right of action exists “when a plaintiff is injured by a constitutional violation, including a ‘separation of powers’ violation,” unless there is a reason to treat the claim
differently from any other constitutional claim. Id.
(citing Free Enter. Fund v. P.C.A.O.B., 561 U.S. 477,
491 n.2 (2010)). Plaintiffs argue that there is no reason to treat the claim here differently, and they reject the President’s analogy to the Supremacy
Clause. Id. at 51.
Plaintiffs reject the President’s contention that
the “zone-of-interests” test applies to constitutional
claims in light of Lexmark Int’l, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377, 1386 (2014), but
state that even if it does, they easily satisfy it. Pls.’

App. 96
Opp’n, ECF No. 17 at 52. Plaintiffs argue that “[t]he
interest they seek to vindicate is at the heart of the
Clause, which employs separation of powers to combat foreign corruption.” Id. Plaintiffs observe that the
President concedes that Congress as a whole would
satisfy any zone-of-interests test, but that he offers
no reason why individual Members of Congress have
a different zone of interests. Id.
The Court is not persuaded that it should find no
implied cause of action in the Foreign Emoluments
Clause on the ground that the Supremacy Clause
does not create a cause of action. In holding there is
no implied cause of action in the Supremacy Clause,
the Supreme Court stated that it “does not create a
cause of action. It instructs courts what to do when
state and federal law clash . . .” Armstrong, 135 S. Ct.
at 1383. That “instruction” stands in sharp contrast
to the Clause, which prohibits the acceptance of any
foreign Emoluments of any kind whatever without
the consent of Congress. Furthermore, the President
points to no authority holding that the Appointments
Clause, which arguably is analogous to the Foreign
Emoluments Clause, does not create an implied right
of action. See generally Mot. to Dismiss, ECF No. 151; Reply, ECF No. 28.
The Court is persuaded that this is a proper case
in which to exercise its equitable discretion to enjoin
allegedly unconstitutional action by the President.
See Armstrong, 135 S. Ct. at 1384 (“[W]e have long
held that federal courts may in some circumstances
grant injunctive relief . . . with respect to violations
of federal law by federal officials.”) (citations omitted). As plaintiffs point out, there is no reason for the
exercise of equitable discretion to be limited to defend a potential enforcement action and the President has cited no authority to the contrary. Pls.’

App. 97
Opp’n, ECF No. 17 at 54. Rather, “it is established
practice for this Court to sustain the jurisdiction of
federal courts to issue injunctions to protect rights
safeguarded by the Constitution” unless there is a
reason not to do so. Free Enter. Fund, 561 U.S. at 491
n.2 (citation omitted); Nixon v. Fitzgerald, 457 U.S.
731, 753-54 (1982) (“It is settled law that the separation-of-powers doctrine does not bar every exercise of
jurisdiction over the President of the United
States.”). Here, accepting the allegations in the
Amended Complaint as true, which the Court must
at this juncture, the President is accepting prohibited
foreign emoluments without seeking congressional
consent, thereby defeating the purpose of the Clause
to guard against even the possibility of “corruption
and foreign influence.” 3 Records of the Federal Convention of 1787, at 327 (Max Farrand ed., 1966). Exercising the Court’s equitable discretion here is
therefore “not in derogation of the separation of powers, but to maintain their proper balance.” Nixon,
457 U.S. at 754.
“[T]he plaintiff’s complaint [must] fall within ‘the
zone of interests’ to be protected or regulated by the
statue or constitutional guarantee in question.” Valley Forge Christian Coll. v. Ams. United for Separation of Church & State, Inc., 454 U.S. 464, 475 (1982)
(quoting Warth v. Seldin, 422 U.S. 490, 499 (1975)).
“We doubt, however, that it is possible to formulate a
single [zone of interests] inquiry that governs all
statutory and constitutional claims.” Clarke v. Sec.
Indus. Ass’n, 479 U.S. 388, 400 n.16 (1987). Assuming the zone-of-interests test applies here, the Court
is persuaded that individual Members of Congress
satisfy that test. The President has conceded that
Congress as a body would satisfy the zone-ofinterests test, Mot. to Dismiss, ECF No. 15-1 at 31,

App. 98
but asserts in his reply that “[p]laintiffs’ claim that
they have been deprived of legislative prerogatives as
Members of Congress is at most ‘marginally related’
to the Foreign Emoluments Clause’s purpose of
guarding against foreign influence,” Reply, ECF No.
28 at 20 (citing Clarke, 479 U.S. at 394, 399). The
Court disagrees. The only way the Clause can
achieve its purpose is for the President to seek and
obtain the consent of Congress before he accepts foreign Emoluments. The Amended Complaint alleges
that plaintiffs’ injury is that they have been deprived
of the right to vote to consent to the President’s receipt of foreign Emoluments before he accepts them.
Am. Compl., ECF No. 14 ¶ 82. Plaintiffs’ injury is
therefore hardly “marginally related” to the purpose
of the Clause, but is directly related to the only way
the Clause can achieve its purpose. See Riegle v. Fed.
Open Mkt Comm., 656 F.2d 873, 879 (D.C. Cir. 1981)
(“[T]he interest which Riegle claims was injured by
defendants’ action (his right to advise and consent to
the appointment of officers of the executive branch)
is within the zone of interests protected by the Appointments Clause of the Constitution.” (citation
omitted)).7 And as the Court explained at length in
its previous Opinion, here there is no adequate legislative remedy. Blumenthal I, 335 F. Supp. 3d at 667

The Court of Appeals for the District of Columbia Circuit
(“D.C. Circuit”) expressly disapproved of “Riegle’s intimation in
dicta that the standing of private plaintiffs to bring particular
action affects the propriety of our entertaining the same challenge when brought by a legislator.” Melcher v. Fed. Open Mkt
Comm., 836 F.2d. 561, 565 (D.C. Cir. 1987). However, the Court
did not address the zone-of-interests analysis in Riegle. See generally id.

App. 99
68.
The Court rejects the President’s suggestion that
“extreme equitable restraint” is appropriate here because plaintiffs can only obtain relief from the President. Mot. to Dismiss, ECF No. 15-1 at 32. Rather,
the fact that plaintiffs can only obtain relief from the
President is precisely the reason the Court should
exercise its equitable discretion here. See District of
Columbia v. Trump, 291 F. Supp. 3d 725, 752 (2018)
(observing that “it would be exalting form over substance if the President’s acts were held to be beyond
the reach of judicial scrutiny when he himself is the
defendant, but held within judicial control when he
and/or the Congress has delegated the performance
of duties to federal officials subordinate to the President and one or more of them can be named as a defendant” (quoting Nat’l Treasury Emps. Union v.
Nixon, 492 F.2d 587, 613 (D.C. Cir. 1974)); see also
Br. of Separation of Powers Scholars as Amici Curiae
in Supp. of Pls. (“Br. of Separation of Powers Scholars”), ECF No. 45 at 15-16 (explaining that the cases
cited by the President do not require dismissal of this
lawsuit because: (1) in Mississippi v. Johnson, 71
U.S. 475 (1866), the Supreme Court dismissed the
case and Mississippi then brought suit against Secretary of War and two other defendants challenging
the same Acts; and (2) in Franklin v. Massachusetts,
505 U.S. 788 (1992) (plurality opinion), the injury
could be redressed by the Secretary of Commerce.
Rather, when there is no other remedy, courts have
allowed suits against the President to proceed).
The Court is mindful that “the separation-ofpowers doctrine requires that a branch not impair
another in the performance of its constitutional duties.” Loving v. United States, 517 U.S. 748, 757
(1996) (citing Mistretta v. United States, 488 U.S.

App. 100
361, 397-408 (1989)). However, as amici Separation
of Powers Scholars point out, there is no such risk
here as the President has not identified what duties
would be impaired, which is distinct from Mississippi
v. Johnson, where “the relief sought by the plaintiff
against the President would have interfered directly
with the President’s ability to take care that the Reconstruction Acts were faithfully executed.” Br. of
Separation of Powers Scholars, ECF No. 45 at 17-18
(citing Johnson, 71 U.S. at 499). Amici also note that
“far from distracting the President from his official
duties, ‘any Presidential time spent dealing with, or
action taken in response to’ a case clarifying the
scope of the Foreign Emoluments Clause is actually
‘part of a President’s official duties.’” Id. at 19 (quoting Clinton v. Jones, 520 U.S. 681, 718 (1997) (Breyer, J., concurring in the judgment)). The Court
agrees. The parties dispute the meaning of “Emolument” but not that the Clause applies to the President. Accordingly, adjudicating this case ensures
that the President fulfills his duty to “take Care that
the Laws be faithfully executed,” U.S. Const. art. II,
§ 3, and consistent with his oath of office to “preserve, protect and defend the Constitution of the
United States,” U.S. Const. art. II, § 1, cl. 8.
2. The Injunctive Relief Sought Is Constitutional
The President argues that the remedy plaintiffs
seek is unconstitutional because an injunction
against him in his official capacity would effectively
“impose a condition on [his] ability to serve as President and to perform the duties he is duly elected to
perform,” Mot. to Dismiss, ECF No. 15-1 at 56,
thereby “implicating core ‘executive and political’ duties,” Reply, ECF No. 28 at 32 (quoting Johnson, 71
U.S. at 499). Plaintiffs respond that the relief sought

App. 101
is not barred because complying with the Clause is
akin to performing a ministerial duty rather than an
official one, and there is no prohibition on injunctive
relief for the performance of a ministerial duty by the
President. Pls.’ Opp’n, ECF No. 17 at 52-54. The
President complains that if plaintiffs’ interpretation
of the Clause is correct, an injunction requiring his
“compliance with the Clause would impose significant burdens” on him. Reply, ECF No. 28 at 32. The
President also disputes that compliance with the
Clause can be characterized as ministerial because of
the “judgment” and “planning” needed to ensure
compliance, but that even if it was so properly characterized, “this Court should still exercise utmost restraint in deciding whether to enjoin a sitting President.” Id.
The Court agrees that restraint is appropriate.
However, Supreme Court and D.C. Circuit precedent
do not foreclose injunctive relief against the President under certain circumstances. A “grant of injunctive relief against the President himself is extraordinary, and should . . . raise [] judicial eyebrows.”
Franklin, 505 U.S. at 802. That said, the Supreme
Court “left open the question whether the President
might be subject to a judicial injunction requiring the
performance of a purely ‘ministerial’ duty.” Id. (citing
Johnson, 71 U.S. at 498–99). “A ministerial duty is
one that admits of no discretion, so that the official in
question has no authority to determine whether to
perform the duty.” Swan v. Clinton, 100 F.3d 973,
977 (D.C. Cir. 1996) (citing Johnson, 71 U.S. at 498
(“[A] ministerial duty . . . is one in respect to which
nothing is left to discretion.”)). “[A] ministerial duty
can exist even ‘where the interpretation of the controlling statute is in doubt,’ provided that ‘the statute, once interpreted, creates a peremptory obliga-

App. 102
tion for the officer to act.’” Id. at 978 (quoting 13th
Reg’l Corp. v. Dep’t of the Interior, 654 F.2d 758, 760
(D.C. Cir. 1980)).
“The language of the Emoluments Clause is both
sweeping and unqualified.” 17 Op. O.L.C. at 121. The
acceptance of an Emolument barred by the Clause is
prohibited unless Congress chooses to permit an exception. Id. Given the “sweeping and unqualified”
Constitutional mandate, the President has “no discretion . . . no authority to determine whether to perform the duty” to not accept any Emolument until
Congress gives its consent. Swan, 100 F.3d at 977.
Accordingly, seeking congressional consent prior to
accepting prohibited foreign emoluments is a ministerial duty. Id. The President’s argument regarding
the “judgment” and “planning” needed to ensure
compliance with the Clause is beside the point. It
may take judgment and planning to comply with the
Clause, but he has no discretion as to whether or not
to comply with it in the first instance. See id. The
President complains about the “significant burdens”
an injunction requiring him to comply with the
Clause would impose. Reply, ECF No. 28 at 32. However, as discussed supra Section IV.D.1, the correct
inquiry is not whether injunctive relief requiring the
President to comply with the Constitution would
burden him, but rather whether allowing this case to
go forward would interfere with his ability to ensure
that the laws be faithfully executed. See Clinton, 520
U.S. at 718 (Breyer, J., concurring in the judgment).
Accordingly, the injunctive relief sought in this case
is constitutional.
V. Conclusion
For the reasons discussed above, the Court finds
that: (1) plaintiffs have stated a claim against the
President for allegedly violating the Foreign Emolu-

App. 103
ments Clause; (2) plaintiffs have a cause of action to
seek injunctive relief against the President; and (3)
the injunctive relief sought is constitutional. The
Court therefore DENIES the portions of the motion
to dismiss that were deferred in the Court’s prior Order. An appropriate Order accompanies this Memorandum Opinion.
SO ORDERED.
Signed:

Emmet G. Sullivan
United States District Judge
April 30, 2019

App. 105
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
Civil Action No. 17-1154 (EGS)
SENATOR RICHARD BLUMENTHAL, ET AL.,
Plaintiffs,
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES,
Defendant.
[Decided June 25, 2019]
MEMORANDUM OPINION AND ORDER
The Court has issued two previous Opinions in
this case. In its September 28, 2018 Opinion, the
Court held that plaintiffs, approximately 201 Members of the 535 Members of the United States Senate
and House of Representatives, had standing to sue
defendant Donald J. Trump in his official capacity as
President of the United States (“the President”) for
alleged violations of the Foreign Emoluments Clause
(“the Clause”). See Blumenthal v. Trump, 335 F.
Supp. 3d 45, 72 (D.D.C. 2018). In its April 30, 2019
Opinion, the Court held that: (1) the term “Emolument” is broadly defined as any profit, gain, or advantage; (2) plaintiffs stated a plausible claim
against the President for violations of the Clause; (3)
plaintiffs have a cause of action to seek injunctive
relief to prevent the President’s violations of the
Clause; and (4) the relief plaintiffs seek—an injunction against the President—is constitutional. See
Blumenthal v. Trump, 373 F. Supp. 3d 191, 207, 211,
212 (D.D.C. 2019).

App. 106
Pending before the Court are the President’s motions for certification for interlocutory appeal of the
Court’s September 28, 2018 Order, ECF No. 60;1 and
April 30, 2019 Order, ECF No. 71-1. The President
also moves to stay proceedings while the Court considers the motions and pending appeal if the Court
grants them. Id. at 25. Upon careful consideration of
the President’s motions, the oppositions and replies
thereto, and for the reasons explained below, the
Court DENIES the President’s motions.2
A District Court may certify an interlocutory order for immediate appeal if the judge is “of the opinion that such order involves [1] a controlling question
of law [2] as to which there is substantial ground for
difference of opinion and [3] that an immediate appeal from the order may materially advance the ultimate termination of the litigation.” 28 U.S.C. §
1292(b). Through section 1292(b), “Congress ... chose
to confer on District Courts first line discretion” and
“circumscribed authority to certify for immediate appeal interlocutory orders deemed pivotal and debatable.” Swint v. Chambers County Comm'n, 514 U.S.
35, 46, 47 (1995). The availability of immediate ap1

The President filed his first motion for certification of interlocutory appeal before the Court had ruled on all the issues the
President raised in his motion to dismiss the complaint. To conserve judicial resources, the Court declined to consider the first
motion until it had ruled on all the issues raised in the motion to
dismiss as the ruling could have rendered the motion for certification of interlocutory appeal moot. The President’s argument in
his initial brief that the Court of Appeals could render a quick
decision on the single issue of standing, Def.’s Reply, ECF No. 62
at 4, is therefore moot.
2

The Court thanks amici for their submission.

App. 107
peal of interlocutory orders subject to the requirements of section 1292(b) is an “exception to the firm
final judgment rule governing federal courts.” Trout
v. Garrett, 891 F.2d 332, 335 (D.C. Cir. 1989). Accordingly, a party seeking certification pursuant to section 1292(b) must meet a high standard to overcome
the “strong congressional policy against piecemeal
reviews, and against obstructing or impeding an ongoing judicial proceeding by interlocutory appeals.”
United States v. Nixon, 418 U.S. 683, 690 (1974).
“Although courts have discretion to certify an issue
for interlocutory appeal, . . . interlocutory appeals are
rarely allowed [and] the movant ‘bears the burden of
showing that exceptional circumstances justify a departure from the basic policy of postponing appellate
review until after the entry of final judgement.’” Virtual Def. and Dev. Int'l, Inc. v. Republic of Moldova,
133 F. Supp. 2d 9, 22 (D.D.C. 2001) (citing First Am.
Corp. v. Al–Nahyan, 948 F. Supp. 1107 (D.D.C.
1996)). Finally, “[t]he moving party bears the burden
of establishing all three elements” of the provisions of
section 1292(b). U.S. House of Representatives v.
Burwell, No. 14-1967, 2015 WL 13699275, at *1
(D.D.C. Oct. 19, 2015) (citing Nat’l Cmty. Reinvestment Coal. v. Accredited Home Lenders Holding Co.,
597 F. Supp. 2d 120, 121 (D.D.C. 2009)); see also Butler v. DirectSat USA, LLC, 307 F.R.D. 445, 452 (“Unless all of the statutory criteria are satisfied . . . ‘the
district court may not and should not certify its order
. . . under section 1292(b).’”) (citing Ahrenholz v. Bd.
of Trs. of the Univ. of Ill., 219 F.3d 674, 676 (7th
Cir.)).
The President contends that the Court’s Orders
involve four controlling questions of law: (1) whether
plaintiffs have standing to sue, Def.’s Statement of P.
& A. in Supp. of Mot. for Certification (“Def.’s Br.”)

App. 108
ECF No. 60-1 at 83; (2) whether plaintiffs have an equitable cause of action; (3) whether the Court can order the declaratory and injunctive relief sought; and
(4) the meaning of the Clause, Def.’s Suppl. Br. in
Supp. of His Mot. (“Def.’s Suppl. Br.”), ECF No. 71-1
at 10.
Despite bearing the burden of establishing all
three elements of section 1292(b), the President has
made little effort to demonstrate the third element—
that “an immediate appeal from the [Court’s Orders]
may materially advance the ultimate termination of
the litigation.” 28 U.S.C. § 1292(b). The President
contends that this element is met because there are
substantial grounds for difference of opinion as to
whether plaintiffs have standing to sue and if the
Court was reversed on this issue, the case would be
terminated for lack of jurisdiction. Def.’s Br., ECF No.
60-1 at 23. The President also states that
“[r]esolution of either of the two threshold justiciability questions [whether plaintiffs have standing to sue
and whether plaintiffs have an equitable cause of action] in the President’s favor would terminate this
suit. And if the Court of Appeals agrees with the
President’s interpretation of the Foreign Emoluments
Clause, the case would be substantially narrowed, if
not over.” Def.’s Suppl. Br., ECF No. 71-1 at 7.
But as plaintiffs point out, if reversal by the
Court of Appeals were the standard for meeting this
element of the section 1292(b) test, “every denial of a
defendant’s dispositive motion would merit an interlocutory appeal.” Pls.’ Opp’n, ECF No. 61 at 12 (citing
When citing electronic filings throughout this Memorandum
Opinion and Order, the Court cites to the ECF header page
number, not the original page number of the filed document.
3

App. 109
Educ. Assistance Found. v. United States, No. 111573, 2014 WL 12780253, at *3 (D.D.C. Nov. 21,
2014) (“Any immediate appeal under an interlocutory
order could affect the conduct of litigation and avoid
unnecessary litigation.”). Furthermore, the President’s “contention that certification of this Court’s
Orders for interlocutory appeal will materially advance this litigation necessarily assumes that [he]
will prevail on appeal.” Judicial Watch Inc. v. Nat’l
Energy Policy Dev. Group, 233 F. Supp. 2d 16, 28
(D.D.C. 2002).
To determine whether the third element has been
met, the Court considers whether an immediate appeal “would likely and materially advance the ultimate determination” of the litigation. Educ. Assistance Found., 2014 WL 12780253, at *3 (quoting
McKenzie v. Kennickell, No. 73-0974, 1986 WL 32653,
at *2 (D.D.C. Oct. 27, 1986); see also Burwell, 2015
WL 13699275, at *1 (noting that the third element
was not satisfied where the case could be “decided in
a matter of months—likely before an interlocutory
appeal could even be decided”). The Court also considers whether “[a]n immediate appeal would conserve judicial resources and spare the parties from
possibly needless expense.” APCC Services Inc. v.
AT&T Corp., 297 F. Supp. 2d 90, 100 (D.D.C. 2003).
Here, the parties agree that all of the issues in
this case can be resolved on cross motions for summary judgment. See Local Rule 16.3 Report, ECF No.
75 at 3. Plaintiffs have proposed a three month time
period for discovery commencing June 28, 2019 and
concluding September 27, 2019. Id. at 6. The President states that “fact discovery should not commence
unless the Court denies the motion for interlocutory
appeal,” id. at 7, and the parties agree on a proposed
briefing schedule that would be complete within an-

App. 110
other three months, id. at 5.
The parties agree, therefore, that discovery will
conclude and cross motions for summary judgment
will be fully briefed within six months. Once the cross
motions are ripe, the Court will be able to resolve
them expeditiously thereby terminating the case. In
view of this abbreviated discovery and briefing
schedule, the President has not “carried [his] burden
of demonstrating that interlocutory appeal of this
question at this point in time would materially advance the litigation as a whole.” Judicial Watch, 233
F. Supp. 2d at 29. This discovery and briefing schedule stands in stark contrast to cases in this district
where Courts have found the moving party to have
met the burden of establishing the third element of
the section 1292(b) test. For example, in Molock v.
Whole Foods Market Group, Judge Mehta observed
that “[d]iscovery in this case, in its present form,
promises to be drawn out, complex, and expensive”
and that “[t]he potential time and expense of obtaining such discovery is staggering.” 317 F. Supp. 3d 1,
at *7 (D.D.C. 2018). In APCC Services Inc., Judge
Huvelle found the third element of the section
1292(b) test to be satisfied in protracted litigation
where discovery had been ongoing “more than four
years after the filing of the suit” and where the significant costs of discovery were expected to “exceed any
possible damages award.” 297 F. Supp. at 100.
The President asserts that “‘[w]hen there are
substantial grounds for difference of opinion as to a
court’s subject matter jurisdiction, courts regularly
hold that immediate appeal may materially advance
the ultimate termination of the litigation.’” Def.’s Br.,
ECF No. 60-1 at 23 (quoting Al Maqaleh v. Gates, 620
F. Supp. 2d 51, 55 (D.D.C. 2009)) (citing APCC Services Inc., 297 F. Supp. 2d at 109 and Lemery v. Ford

App. 111
Motor Co., 244 F. Supp. 2d 720, 728 (S.D. Tex. 2002)).
This Court does not read the cited cases to support
such a broad proposition and finds the facts here to
be distinguishable. The Court has explained Judge
Huvelle’s reasoning in APCC Services Inc. for finding
this element to have been satisfied supra, and in
Lemery, the Court found this element to be satisfied
with little analysis in a products liability case where
there would be protracted discovery at “tremendous
expense.” 244 F. Supp. 2d at 728. Neither situation is
the case here. Furthermore, although in each case,
the question for certification involved a jurisdictional
issue, that was not the sole reason the Court found
this element to be satisfied and for granting the motion.
The President also argues that the cases plaintiffs cite in support of their argument actually support his position because each of the cases was in a
late stage and “certain to conclude in relatively short
order through a resolution of summary judgment motions or a brief trial.” Def.’s Reply, ECF No. 62 at 5.
The Court disagrees that the cases provide support
for the President’s position. Rather, these cases are
more similar to the situation here, where even
though discovery has not begun, it will be scheduled
to conclude and cross motions for summary judgment
to be fully briefed within six months. See Burwell,
2015 WL 13699275 at *1 (denying motion for certification because “[u]nlike typical civil litigation, where
the denial of a motion to dismiss would be followed by
months or even years of discovery, this case is presently suited for summary disposition,” which could be
decided “in a matter of months”); United States ex rel.
Barko v. Halliburton Co., 4 F. Supp. 3d 162, 167
(D.D.C. 2014) (denying motion for certification in part
because “[t]o pause litigation so close to the end of

App. 112
discovery and so near the deadline for summary
judgment briefing would waste judicial resources.”).
While some of the cases cited were poised for a quicker resolution than is the case here, see Washington
Tennis & Educ. Found., Inc. v. Clark Nexsen, Inc.,
324 F. Supp. 3d, 128, 146 (D.D.C. 2018) (“Once calendared, trial on Defendant’s counterclaim can be accomplished in less than a week.”); Brown v. Pro Football Inc., 812 F. Supp. 237, 239 (D.D.C. 1992) (“Given
that the trial on damages is imminent, it is evident
that it would not expedite the ultimate termination of
this litigation to delay proceedings for an interlocutory appeal.”); Singh v. George Washington Univ., 383
F. Supp. 2d 99, 105 (D.D.C. 2005) (“With this litigation poised for a relatively short, limited trial, it
would not materially advance the termination of the
litigation to authorize a piecemeal appeal.”), this case
will be poised for resolution within six months; an
immediate appeal would hardly materially advance
its ultimate termination.
Since the President has failed to meet his burden
of establishing “that an immediate appeal from the
order may materially advance the ultimate termination of the litigation,” 28 U.S.C. § 1292(b), the Court
need not consider whether the President has met his
burden of establishing the other two criteria for certifying an order for an immediate appeal. See Educ.
Assistance Found., 2014 WL 12780253, at *3 (“The
plaintiff having failed to establish that the Court’s
ruling on the admissibility of the subject document
presents a controlling question of law, and that an
interlocutory appeal would materially advance the
litigation, the Court need not consider whether there
exists a substantial ground for a difference of opinion
regarding the document’s admissibility.”) (citing 28
U.S.C. § 1292(b) and Ahrenholz, 219 F.3d at 676

App. 113
(“Unless all these criteria are satisfied, the district
court may not and should not certify its order to us
for an immediate appeal under section 1292(b).”);
Baylor v. Mitchell Rubenstein & Assocs., No. 13-1995,
2014 WL 12644263, at *2 (D.D.C. July 30, 2014) (“But
even if the Court were able to find that substantial
grounds for difference of opinion did exist, it would
nonetheless deny the motion for certification because
plaintiff has not demonstrated that this case satisfies
section 1292(b)'s third requirement: ‘that an immediate appeal from the order may materially advance the
ultimate termination of the litigation.’”) (citation
omitted).
The President argues that the exceptional circumstances of this case make certification for interlocutory appeal appropriate. See Def.’s Br., ECF No.
60-1 at 10-13. But “even if the circumstances [are]
truly extraordinary . . . that would favor certification
only if all the criteria required by § 1292(b) are otherwise met.” District of Columbia v. Trump, 344 F.
Supp. 3d 828, 842 (D. Md. 2018). As explained above,
the President has failed to meet his burden of demonstrating the third element of the section 1292(b) test.
The President also moves to stay proceedings: (1)
while the Court considers the section 1292(b) motions; and (2) pending appeal if the Court grants the
motions. Def.’s Suppl. Br., ECF No. 71-1 at 25. Because the Court has denied the President’s motions
for certification, his request to stay proceedings pending consideration of the motions and pending appeal
if the motion is granted are DENIED as MOOT.
Accordingly, it is hereby
ORDERED that [60] the President’s motion for
certification for interlocutory appeal of the Court’s
September 28, 2018 Order is DENIED; and it is fur-

App. 114
ther
ORDERED that [71] the President’s motion for
certification for interlocutory appeal of the Court’s
April 30, 2019 Order and for stay is DENIED.
SO ORDERED.
Signed:

Emmet G. Sullivan
United States District Judge
June 25, 2019

App. 115
IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5196
IN RE: DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES,
Petitioner,
[Filed July 19, 2019]
Before: MILLETT, PILLARD, AND WILKINS,
Circuit Judges.
ORDER
Upon consideration of the petition for writ of
mandamus and motion for stay pending disposition of
the mandamus petition, the opposition thereto, the
reply, and the Rule 28(j) letter, it is
ORDERED that the petition for mandamus be
denied without prejudice. Although Petitioner has
identified substantial questions concerning standing
and the cause of action, he has not shown a clear and
indisputable right to dismissal of the complaint in
this case on either of those grounds. See Cheney v.
United States Dist. Court for D.C., 542 U.S. 367, 381
(2004); In re al-Nashiri, 791 F.3d 71, 78 (D.C. Cir.
2015).
Petitioner requests in the alternative a writ of
mandamus directing the district court to certify for
interlocutory appeal pursuant to 28 U.S.C. § 1292(b)
its September 28, 2018 and April 30, 2019 orders
denying petitioner’s motion to dismiss. This court is
of the view that those orders squarely meet the criteria for certification under Section 1292(b). Cf. In re

App. 116
Trump, No. 18-2486, 2019 WL 2997909, at *8 (4th
Cir. July 10, 2019). The question of whether the Foreign Emoluments Clause, U.S. CONST. Art. I, § 9, cl.
8, or other authority gives rise to a cause of action
against the President is unsettled, and the standing
question arises at the intersection of precedent. Compare Virginia House of Delegates v. Bethune-Hill, 139
S. Ct. 1945 (2019), with Coleman v. Miller, 307 U.S.
433 (1939). In addition, because either of those issues
could be dispositive of this case, it appears to this
court that the district court abused its discretion by
concluding that an immediate appeal would not advance the ultimate termination of the litigation just
because discovery and summary judgment briefing
could proceed expeditiously. The district court did not
adequately address whether— given the separation of
powers issues present in a lawsuit brought by members of the Legislative Branch against the President
of the United States—resolving the legal questions
and/or postponing discovery would be preferable, or
whether discovery is even necessary (or more limited
discovery would suffice) to establish whether there is
an entitlement to declaratory and injunctive relief of
the type sought by plaintiffs. See Cheney, 542 U.S. at
391 (error to allow civil suit against the Vice President to proceed “without even reaching the weighty
separation of powers objections raised in the case”
about the scope of discovery); Clinton v. Jones, 520
U.S. 681, 707 (1997) (given separation of powers concerns, avoiding unnecessary burdens on the President
“is a matter that should inform the conduct of the entire proceeding, including the timing and scope of discovery[]”). In an inter-branch dispute like this, those
important and open threshold questions of pure law
are best resolved conclusively through an expedited
interlocutory appeal with focused briefing and oral
argument, rather than tentatively through the de-

App. 117
manding lens of the mandamus requirement of clear
and indisputable error.
The question of whether a court of appeals has
jurisdiction to issue a writ of mandamus to order a
district court to certify an issue for interlocutory appeal pursuant to 28 U.S.C. § 1292(b) has divided the
courts of appeals. Compare, e.g., In re Trump, 2019
WL 2997909, at *8–9, with In re Ford Motor Co., 344
F.3d 648, 653–55 (7th Cir. 2003) (collecting cases).
We need not wade into that dispute at this time. We
instead exercise our discretion to deny the writ, without prejudice, and remand the matter to the district
court for immediate reconsideration of the motion to
certify and the motion to stay the proceedings. It is
FURTHER ORDERED that the motion for stay
pending resolution of the petition for mandamus be
dismissed as moot.
This panel will retain jurisdiction only over the
decision whether to grant any petition for permission
to appeal, should the district court grant certification
pursuant to 28 U.S.C. § 1292(b) upon remand, or any
subsequent petition for writ of mandamus, should the
district court deny certification upon remand.
Per Curiam
FOR THE COURT:
Mark J. Langer,
Clerk
BY:

/s/
Amanda Himes
Deputy Clerk

App. 118
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
Civil Action No. 17-1154 (EGS)
SENATOR RICHARD BLUMENTHAL, ET AL.,
Plaintiffs,
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES,
Defendant.
[Filed August 21, 2019]
MEMORANDUM OPINION AND ORDER
The Court has issued three Opinions in this case.
In its September 28, 2018 Opinion, the Court held
that plaintiffs, approximately 201 Members of the
535 Members of the United States Senate and House
of Representatives, had standing to sue defendant
Donald J. Trump in his official capacity as President
of the United States (“the President”) for alleged violations of the Foreign Emoluments Clause (“the
Clause”). See Blumenthal v. Trump, 335 F. Supp. 3d
45, 72 (D.D.C. 2018). In its April 30, 2019 Opinion,
the Court held that: (1) the term “Emolument” is
broadly defined as any profit, gain, or advantage; (2)
plaintiffs stated a plausible claim against the President for violations of the Clause; (3) plaintiffs have a
cause of action to seek injunctive relief to prevent the
President’s violations of the Clause; and (4) the relief
plaintiffs seek—an injunction against the President—
is constitutional. See Blumenthal v. Trump, 373 F.
Supp. 3d 191, 207, 211, 212 (D.D.C. 2019). In its June

App. 119
25, 2019 Memorandum Opinion and Order, the Court
denied the President’s motions for certification for interlocutory appeal of the Court’s September 28, 2018
Order, April 30, 2019 Order (“collectively ‘dismissal
orders’”), and for stay. See Blumenthal v. Trump
(“Blumenthal III”), 382 F. Supp. 3d 77, 79 (D.D.C.
2019).
Thereafter, the President petitioned the U.S.
Court of Appeals for the District of Columbia Circuit
(“D.C. Circuit”) for a writ of mandamus against this
Court’s orders denying the President’s motion to dismiss and motion for certification for interlocutory appeal. See Def.’s Notice of Pet. for Writ of Mandamus,
ECF No. 90. On July 19, 2019, the D.C. Circuit denied the petition for writ of mandamus without prejudice. In re Donald J. Trump, No. 19-5196, 2019 WL
3285234 (D.C. Cir. July 19, 2019). In so doing, the
D.C. Circuit stated that “[a]lthough Petitioner has
identified substantial questions concerning standing
and the cause of action, he has not shown a clear and
indisputable right to dismissal of the complaint in
this case on either of those grounds.” Id. at *1. However, the D.C. Circuit remanded this matter “for immediate reconsideration of the motion to certify and
the motion to stay the proceedings,” stating that this
Court
did not adequately address whether—
given the separation of powers issues
present in a lawsuit brought by members of the Legislative Branch against
the President of the United States—
resolving the legal questions and/or
postponing discovery would be preferable, or whether discovery is even necessary (or more limited discovery would

App. 120
suffice) to establish whether there is an
entitlement to declaratory and injunctive relief of the type sought by plaintiffs.
Id.
Upon receipt of the Order, the Court sua sponte
temporarily stayed discovery until further Order of
the Court, see Minute Order, July 19, 2019; and
thereafter ordered expedited supplemental briefing
limited to the issues raised in the D.C. Circuit’s Order, see Minute Order, July 22, 2019. The supplemental briefing is now ripe for resolution by the
Court.
The President urges the Court to certify its dismissal orders for interlocutory appeal and stay all
proceedings pending the appeal. Def.’s Suppl. Br. in
Supp. of His Mot. for Certification of the Court’s Sept.
28, 2018 and April 30, 2019 Orders Pursuant to 28
U.S.C. § 1292(b) and For a Stay Pending Appeal, ECF
No. 93 at 2-3.1
Plaintiffs argue that “they believe that limited
discovery focused on the third-party businesses
through which the President is accepting foreigngovernment benefits will best enable this Court to determine which of those entities are accepting foreigngovernment benefits of the various types identified in
Plaintiffs’ complaint.” Pls.’ Suppl. Br. in Opp’n to
Def.’s Mot. for Certification Pursuant to 28 U.S.C. §
1292(b) and Motion For a Stay Pending Appeal, ECF
1

When citing electronic filings throughout this Opinion, the
Court cites to the ECF page number, not the page number of the
filed document.

App. 121
No. 94 at 10-11. Plaintiffs state that this limited discovery is “necessary to identify the specific companies
in which President Trump holds a verified ownership
interest that are receiving each of the aforementioned
categories of financial benefits from foreign governments.” Id. at 11.
However, recognizing that it is publicly known
that the Trump Organization has established a “voluntary procedure by which [it] identifies and donates
to the U.S. Treasury profits from foreign government
patronage at its hotels and similar businesses,” plaintiffs state that discovery is not necessary “to allow
this Court to grant declaratory and injunctive relief
barring the President from accepting foreign emoluments with congressional consent” with regard to
some benefits that qualify as emoluments under this
Court’s April 30, 2019 Memorandum Opinion. Id.
Plaintiffs state that there is also publicly available
information about some of the foreign trademarks
that have been provisionally approved. Id. Further,
plaintiffs state that “[i]f this Court agrees that it
could rely on these materials to resolve this case on
summary judgment, [p]laintiffs are prepared to forgo
discovery and to file a motion for summary judgment
on an expedited basis.” Id. at 13. Plaintiffs contend
that if the Court orders expedited summary judgment
briefing, certification for an interlocutory appeal
would be inappropriate because it would not “materially advance the ultimate termination of the litigation” and because the D.C. Circuit’s separation-ofpowers concerns would be obviated. Id. at 13-14.
The President responds that plaintiffs’ suggestion
is “squarely contrary” to the D.C. Circuit’s decision,
noting that it had taken “account of the possibility
that summary judgment could occur quickly and con-

App. 122
cluded that the Dismissal Orders nonetheless warranted interlocutory appeal.” Def.’s Suppl. Reply Br.
in Supp. of His Mot. for Certification of the Court’s
Sept. 28, 2018 and April 30, 2019 Orders Pursuant to
28 U.S.C. § 1292(b) and For a Stay Pending Appeal,
ECF No. 95 at 2.
The Court is persuaded that the plaintiffs’ proposals to forgo discovery and/or engage in expedited
summary judgment briefing would be inconsistent
with the remand order from the D.C. Circuit. Critically, this Court had denied the motions because “in
view of th[e] abbreviated discovery and briefing
schedule, the President has not ‘carried his burden of
demonstrating that interlocutory appeal of this question at this point in time would materially advance
the litigation as a whole.’” Blumenthal III, 382 F.
Supp. 3d at 81 (quoting Judicial Watch Inc. v. Nat’l
Energy Policy Dev. Group, 233 F. Supp. 2d 16, 29
(D.D.C. 2002)).
A District Court may certify an interlocutory order for immediate appeal if the judge is “of the opinion that such order involves [1] a controlling question
of law [2] as to which there is substantial ground for
difference of opinion and [3] that an immediate appeal from the order may materially advance the ultimate termination of the litigation.” 28 U.S.C. §
1292(b). In the remand order, the D.C. Circuit stated
that it “is of the view that th[e dismissal] orders
squarely meet the criteria for certification under Section 1292(b),” noting that:
The question of whether the Foreign
Emoluments Clause, U.S. CONST. Art.
I, § 9, cl. 8, or other authority gives rise
to a cause of action against the Presi-

App. 123
dent is unsettled, and the standing
question arises at the intersection of
precedent. Compare Virginia House of
Delegates v. Bethune-Hill, ––– U.S.––––,
139 S. Ct. 1945, ––– L. Ed. 2d ––––
(2019), with Coleman v. Miller, 307 U.S.
433, 59 S. Ct. 972, 83 L. Ed. 1385
(1939). In addition, because either of
those issues could be dispositive of this
case, it appears to this court that the
district court abused its discretion by
concluding that an immediate appeal
would not advance the ultimate termination of the litigation just because discovery and summary judgment briefing
could proceed expeditiously.
In re Donald J. Trump, 2019 WL 3285234, at *1. Accordingly, the Court will certify the dismissal orders
for immediate appeal pursuant to 28 U.S.C. §
1292(b).
The Court will also stay proceedings2 in this case
pending the interlocutory appeal. See Landis v.
North America Co., 299 U.S. 248, 254 (1936) (“the
power to stay proceedings is incidental to the power
inherent in every court to control the disposition of
the causes on its docket with economy of time and
effort for itself, for counsel, and for litigants”). 3
2

Section 1292(b) provides that an “application for an appeal
hereunder shall not stay proceedings in the district court unless
the district judge or the Court of Appeals or a judge thereof shall
so order.” 28 U.S.C. § 1292(b).
3

Because the Court has the inherent power to stay proceedings on its calendar, it need not consider the factors to be con-

App. 124
Accordingly, it is hereby
ORDERED that [82] Memorandum Opinion and
Order dated June 25, 2019 is VACATED; and it is
further
ORDERED that [60] the President’s motion for
certification for interlocutory appeal of the Court’s
September 28, 2018 Order is GRANTED; and it is
further
ORDERED that [71] the President’s motion for
certification for interlocutory appeal of the Court’s
April 30, 2019 Order and for stay is GRANTED; and
it is further
ORDERED that the dismissal orders are certified for immediate appeal pursuant to 28 U.S.C. §
1292(b).
SO ORDERED.
Signed:

Emmet G. Sullivan
United States District Judge
August 21, 2019

sidered by a court of appeals when deciding whether to stay proceedings in a district court pending appeal. Nken v. Holder, 556
U.S. 418 (2009).

App. 125
IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-8005
IN RE: DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES,
Petitioner.
[Filed September 4, 2019]
Before: MILLETT, PILLARD, AND WILKINS,
Circuit Judges.
ORDER
Upon consideration of the petition for leave to file
an interlocutory appeal and the response thereto, it is
ORDERED that the petition be granted. See 28
U.S.C. § 1292(b).
The Clerk is directed to transmit a copy of this
order to the district court. The district court will file
the order as a notice of appeal pursuant to Fed. R.
App. P. 5. The district court is requested to promptly
certify and transmit the preliminary record to this
court, after which the case will be assigned a general
docket number.
The parties are directed to submit a proposed expedited briefing schedule within 3 days of the appeal
being docketed in this court.
Per Curiam
FOR THE COURT:

App. 126
Mark J. Langer,
Clerk
BY:

/s/
Lynda M. Flippin
Deputy Clerk

